<html>
<title> - TACKLING HUMAN TRAFFICKING: ASSESSING FEDERAL, STATE, AND LOCAL INFORMATION-SHARING EFFORTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 TACKLING HUMAN TRAFFICKING: ASSESSING 
         FEDERAL, STATE, AND LOCAL INFORMATION-SHARING EFFORTS

=======================================================================

                             FIELD HEARING

                               BEFORE THE
                               
                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2019

                               __________

                           Serial No. 116-45

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-461 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------





                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                              
                              ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
                  Vacancy, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     1
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4

                               Witnesses

Ms. Christine S. Long, Executive Director, North Carolina Human 
  Trafficking Commission, North Carolina Judicial Branch:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Ronnie A. Martinez, Special Agent in Charge, Homeland 
  Security Investigations, Charlotte Field Office, U.S. 
  Immigration and Customs Enforcement, Department of Homeland 
  Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Carl L. Wall, II, Special Agent in Charge, North Carolina 
  State Bureau of Investigation, Human Trafficking Unit:
  Oral Statement.................................................    16
  Prepared Statement.............................................    19
Ma. Aundrea Azelton, Chief Deputy, Randolph Country, North 
  Carolina Sheriff's Office:
  Oral Statement.................................................    22
  Prepared Statement.............................................    25

 
    TACKLING HUMAN TRAFFICKING: ASSESSING FEDERAL, STATE, AND LOCAL 
                      INFORMATION-SHARING EFFORTS

                              ----------                              


                        Monday, October 28, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Intelligence 
                                      and Counterterrorism,
                                                    Greensboro, NC.
    The subcommittee met, pursuant to notice, at 9:05 a.m., Old 
County Courthouse, 301 West Market Street, Greensboro, North 
Carolina, Hon. Max Rose (Chairman of the subcommittee) 
presiding.
    Present: Representatives Rose and Walker.
    Mr. Rose. The Subcommittee on Intelligence and 
Counterterrorism will come to order.
    The subcommittee is meeting today to receive testimony on 
tackling human trafficking, assessing Federal, State, and local 
information-sharing efforts.
    Before I pass this off to Ranking Member Walker, first of 
all, thank you for being so hospitable to this New Yorker, and 
if I may just take a point of privilege and say it has been an 
incredible honor to serve with Ranking Member Walker.
    You all have, I believe, one of if not the best Members of 
Congress representing you, someone I learned from, someone it 
is a great privilege and honor to work with, and I think we are 
certainly making the country a better place.
    So thank you for the great privilege of allowing him to 
keep on coming back.
    [The statement of Chairman Rose follows:]
                     Statement of Chairman Max Rose
                            October 28, 2019
    I'm happy to be here in North Carolina--great to be here in your 
beautiful State. You've treated this New Yorker well. And trust me, 
it's always nice to leave the District of Columbia. It has been a 
pleasure serving on the Intelligence and Counterterrorism Subcommittee 
with my colleague and friend, Ranking Member Mark Walker.
    It's so important to get out of the echo chamber of the District of 
Columbia and hear from people across the country about the problems 
they face. That's our duty as Members of Congress. Earlier this year, 
in May, Ranking Member Walker joined me for a field hearing in my 
district on Staten Island, where we heard from local officials about 
the terrorism threats facing New York City. Today, we're coming to 
Ranking Member Walker's neck of the woods to talk about the very 
serious issue of human trafficking. Today's hearing is entitled 
``Tackling Human Trafficking: Assessing Federal, State, and Local 
Information Sharing Efforts.''
    Today we will hear testimony from witnesses who are on the front 
lines of the fight against human trafficking here in North Carolina. I 
don't need to tell anyone that human trafficking is a huge problem. 
There are an estimated 40.3 million victims of human trafficking world-
wide, of which more than 400,000 are believed to live in the United 
States. That is a horrific statistic. We must do better. A study by 
Polaris in 2018 showed that one of the biggest risk factors for being 
trafficked is whether you've recently migrated or relocated. The second 
biggest risk factor was substance abuse. The biggest takeaway, though, 
is that there's no one profile that fits a victim of human trafficking, 
although women and children have a higher risk of being trafficked.
    There's no one profile for an individual who participates in 
trafficking humans. And in the face of such a massive, diverse problem, 
we really need a whole-of-society approach. From the Department of 
Homeland Security all the way to local law enforcement, everyone has a 
part to play. I understand that, in the last decade, the Department of 
Homeland Security has unified its efforts to fight human trafficking 
under the Blue Campaign. That includes the work being done by ICE 
Homeland Security Investigations. I'd like to hear more about the Blue 
Campaign today--about what's working, what challenges you face, and how 
Congress might be able to help. I also believe that businesses must 
play their part too. That's why I support legislation sponsored by my 
fellow New Yorker, Representative Carolyn Maloney, the Business Supply 
Chain Transparency on Trafficking and Slavery Act. It would force large 
corporations--any company that makes more than $100 million a year--to 
tell Americans, every year, what measures that company has taken to 
identify and address conditions of forced labor, slavery, human 
trafficking, and child labor within that company's supply chains.
    Today, I want to hear from all of our witnesses about the quality 
and frequency of information sharing between Federal, State, and local 
officials. I also want to hear about how some of you may have worked 
with businesses, here in North Carolina and across the country, to help 
fight human trafficking from that end as well. Finally, I'd also like 
to hear what recommendations you might have for Congress--or even for 
other States, like my home State of New York--to strengthen the fight 
against human trafficking.

    Mr. Rose. With that, sir, I will recognize you for the 
opening statement as this is your home territory.
    Mr. Walker. Thank you, Chairman Rose.
    We may have to squeeze--get you a little barbecue today 
before we get back to the District of Columbia. I don't know 
how New Yorkers do barbecue but we have got a couple ways we do 
it in North Carolina here.
    But it is a privilege to work with you and getting to know 
you the last couple of years, just your heart to get to, 
really, the bottom line of these kinds of issues and a lot of 
experience coming from New York specifically in this area, and 
I appreciate the opportunity to work--appreciate the 
opportunity to have you here in New York.
    On behalf of my fellow North Carolinians, I would like to 
welcome all of you today as well as the other Members of the 
Subcommittee on Intelligence and Counterterrorism to my home 
State.
    I would also like to thank the Chairman for agreeing to 
hold this important hearing on human trafficking. I believe 
this is the first Federal hearing since 1921 here in central 
North Carolina.
    As you all know, human trafficking is a despicable crime 
that continues to plague the Nation. Before I get into the 
numbers, I also wanted to take just a moment and acknowledge 
the incredible work of our armed services in taking out someone 
who certainly was no stranger to human trafficking and that was 
al-Baghdadi, the leader of ISIS.
    I applaud, certainly, the administration and specifically 
the great men and women in Special Forces and other--really, 
other service men and women who support that to really make a 
huge difference to eradicate such beings from the planet.
    Human trafficking--let us look at a couple numbers here. 
Since 2018 or in 2018, there were 10,949 human trafficking 
cases that reported to the National Hotline.
    Trafficking occurs in every State across the country. The 
vast majority relate to sex trafficking and the victims in 
women or girls.
    Sadly, human trafficking is one of the fastest-growing 
crimes in the United States. Our major highway system, our 
agriculture economy, and a growing number of criminal gangs 
have increased the prevalence of human trafficking within North 
Carolina with some cases reported even in our district, and 
there are some things that I am sure that Sheriff Sam Page from 
Rockingham County here today with us can testify.
    Last year, 287 cases of human trafficking were reported 
through the hotline in North Carolina, ranking the State tenth 
in the Nation.
    This is a fraction of the cases reported in California, 
Texas, Florida, and elsewhere, largely due to the efforts made 
by stakeholders across the State to coordinate efforts, develop 
training, and partner with victims services providers.
    I will tell you there are some wonderful ladies on the 
back--not the back row but sitting back there that we have 
worked on several different State-wide occasions that are doing 
incredible work not just on a State-sponsored thing but a lot 
of the nonprofits that really make a difference in the lives.
    Certainly, much more needs to be done to combat this 
activity and I am proud that today's hearing can highlight the 
important work that is going on across North Carolina.
    Several State laws have been enacted, which is good, 
including the permanent creation of the Human Trafficking 
Commission, which is making annual recommendations to the State 
legislature on additional authorities, and is working with the 
State Bureau of Investigation to develop a State-wide training 
program and best practices for law enforcement.
    I have made combating human trafficking a priority in my 
office from the very first day. I was proud to be the first 
freshman of the 114th class to pass a bill through the House.
    This bill, the Human Trafficking Detection Act of 2015, 
works to train and inform DHS personnel to do better in 
detecting and intersecting human traffickers as well as their 
victims specific to their professional roles as well as the 
making and the training curricula available to all State, 
local, and private-sector partners.
    I am interested in hearing from our witnesses today about 
how the implementation of this law has assisted in the 
cooperation with all levels of government in their efforts.
    However, as legislators, we know there is much more that 
needs to be done and must continue to work in a bipartisan 
fashion to solve the complex problems related to human 
trafficking and ensure those on the front lines have the 
necessary tools that they need.
    From talking with victims, advocacy groups, law 
enforcement, and Government agencies across the State, there is 
no doubt there is a need and a desire for more coordination, 
training, public awareness, and victim services.
    I look forward to hearing from our distinguished panel 
today and learning about how Congress can even further assist 
their on-going efforts to combat this international affliction.
    This problem is bigger than any one jurisdiction's 
resources.
    Again, I want to thank Chairman Rose and Ms. Jackson Lee 
for joining us today. I think Ms. Jackson Lee may not be here--
we are waiting on that--but for this important hearing.
    I also want to express my sincere appreciation for the 
witnesses both for appearing here today and for the work that 
you do every day.
    Chairman, I yield back the balance of my time.
    [The statement of Ranking Member Walker follows:]
                   Statement of Honorable Mark Walker
                            October 28, 2019
    On behalf of my fellow North Carolinians, I would like to welcome 
Chairman Rose and the other Members of the Subcommittee on Intelligence 
and Counterterrorism to my home State. I would also like to thank the 
Chairman for agreeing to hold this important hearing on human 
trafficking, a despicable crime that continues to plague the Nation.
    In 2018, there were 10,949 human trafficking cases were reported 
through the National hotline. Trafficking occurs in every State across 
the country. The vast majority relate to sex trafficking and the 
victims are women and girls.
    Sadly, human trafficking is one of the fastest-growing crimes 
within the United States. Our major highway system, our agricultural 
economy, and a growing number of criminal gangs have increased the 
prevalence of human trafficking within North Carolina, with some cases 
reported in my district.
    Last year, 287 cases of human trafficking were reported through the 
hotline in North Carolina, ranking the State tenth in the Nation. This 
is a fraction of the cases reported in California, Texas, Florida, and 
elsewhere, largely due to the efforts made by stakeholders across the 
State to coordinate efforts, develop training, and partner with victim 
service providers.
    While much more needs to be done to combat this activity, I am 
proud that today's hearing can highlight the important work that is on-
going across North Carolina. Several State laws have been enacted, 
including the permanent creation of the Human Trafficking Commission, 
which is making annual recommendations to the State legislature on 
additional authorities and is working with the State Bureau of 
Investigation to develop State-wide training programs and best 
practices for law enforcement.
    I have made combatting human trafficking a priority in my time in 
office. I was proud to be the first freshman of the 114th class to pass 
a bill through the House. This bill, the Human Trafficking Detection 
Act of 2015, works to train and inform DHS personnel to better detect 
and intercept human traffickers and their victims, specific to their 
professional roles, as well as making the training curricula available 
to all State, local, and private-sector partners. I am interested in 
hearing from our witnesses today about how the implementation of this 
law has assisted in the cooperation with all levels of government in 
their efforts.
    However, as legislators, we know there is so much more that needs 
to be done. We must continue to work in a bipartisan fashion to solve 
the complex problems related to human trafficking and ensure those on 
the front lines have the necessary tools they need. From talking with 
victims, advocacy groups, law enforcement, and government agencies 
across the State, there is no doubt that there is a need and desire for 
more coordination, training, public awareness, and victim services.
    I look forward to hearing from our distinguished panel and learning 
about how Congress can assist their on-going efforts to combat this 
international affliction. The problem is bigger than any one 
jurisdiction's resources.
    Again, I want to thank Chairman Rose and Ms. Jackson Lee for 
joining me for this important hearing. I also want to express my 
sincere appreciation for the witnesses, both for appearing here today 
and for the work you do every day. I yield back the balance of my time.

    Mr. Rose. Thank you, Ranking Member Walker.
    Before I pass it back to you just to introduce the 
witnesses, I would like to just certainly point to a few pieces 
of legislation I think are of critical importance.
    One is sponsored by my fellow New Yorker, Representative 
Carolyn Maloney, the Business Supply Chain Transparency on 
Trafficking and Slavery Act.
    It would force large corporations--any company that makes 
$100 million or more a year--to tell Americans every year what 
measures the company has taken to identify and address 
conditions of forced labor, slavery, human trafficking, and 
child labor.
    But beyond that, today I am eager to hear from the 
witnesses as to how we can provide a whole-of-Government, a 
whole-of-society approach to tackling this incredibly 
difficult, incredibly complex problem that produces untold 
levels of sorrow and misery, and I believe communities across 
the country--I do not think that there is any community in the 
United States of America that is not in some way, shape, or 
form dealing with this problem.
    Then, in addition, I am also interested to hear from our 
witnesses today how we can use the tools of law enforcement 
available to us but also how we can use the public health and 
social service-based tools available to us as well to not only 
address this problem and the consequences of it but to also 
prevent it from arising in the first place.
    So with that, Ranking Member, I will pass it back to you 
again to introduce this exceptional panel of witnesses.
    Mr. Walker. Thank you, Chairman Rose. I appreciate the 
courtesy of allowing me to introduce this impressive panel who, 
collectively, I think, together--we added it up--has over a 
hundred years of public service. We thank you for--each of you 
for that.
    First, we will hear from Ms. Christine Shaw Long. Ms. Long 
serves as the executive director of the North Carolina Human 
Trafficking Commission for the North Carolina Judicial Branch.
    She previously worked and spent 15 years with the Salvation 
Army of Wake County as the director of Social Ministries. She 
also served 4 years on the North Carolina Human Trafficking 
Commission and on the Salvation Army's North American Anti-
Human Trafficking Council.
    In 2017, she was presented with the National Salvation Army 
Excellence in Social Work award. Ms. Long, thank you for your 
years of dedicated service to human trafficking victims.
    Second, we will hear from Mr. Ronnie Martinez. Mr. Martinez 
is the special agent in charge of the Charlotte field office 
for Homeland Security Investigations within the Department of 
Homeland Security.
    Mr. Martinez spent over 27 years of law enforcement--has 
over 27 years of law enforcement experience. Mr. Martinez has 
also held several leadership positions within HSI, including 
Missouri, Washington, and California.
    Mr. Martinez began his law enforcement career in 1992 with 
the U.S. Customs Service and served our country in the United 
States Navy from 1985 to 1989. Thank you for your service, Mr. 
Martinez, and being here today.
    Our third witness is Mr. Carl Wall, the special agent in 
charge of the Human Trafficking Unit for the North Carolina 
State Bureau of Investigations.
    Special Agent in Charge Wall has worked in numerous local 
law enforcement positions during his 26-year career.
    His prior positions include serving as a Wake County deputy 
sheriff, North Carolina SBI drug agent, and a DEA task force 
officer and special agent in charge for the SBI training 
session. There is a lot of initials there but I think we have 
got them covered there.
    Since 2018, Special Agent Wall has been standing up for the 
SBI's first Human Trafficking Unit. I appreciate your 
participation today.
    Our final witness today is Colonel Aundrea Azelton. Colonel 
Azelton is the chief deputy at the Randolph County Sheriff's 
Office. She is a 24-year law enforcement veteran including 10 
years as a detective.
    She has worked in both Randolph and Alamance County. I 
think from what I heard last time that Randolph stole you back 
from Alamance County. But that is--we may not get into that 
today.
    But Colonel Azelton served as a lead homicide investigator 
in Randolph County and specialized as a human trafficking 
investigator in Alamance County before returning to Randolph 
County as the first female chief deputy.
    Thank you all for appearing here today. I look forward to 
your testimony and I yield back, Mr. Chairman.
    Mr. Rose. Thank you, Ranking Member.
    I would also just like to point out how absolutely 
beautiful this building is. They don't build stuff like this in 
New York anymore.
    So without objection, the witnesses' full statements will 
be inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Ms. Christine Shaw Long.

   STATEMENT OF CHRISTINE S. LONG, EXECUTIVE DIRECTOR, NORTH 
CAROLINA HUMAN TRAFFICKING COMMISSION, NORTH CAROLINA JUDICIAL 
                             BRANCH

    Ms. Long. Thank you.
    Good morning, Chairman Rose, Ranking Member Walker. Thank 
you for the opportunity to testify before you today on this 
critically important topic.
    It is an honor to speak on behalf of the many dedicated 
professionals appointed to the North Carolina Human Trafficking 
Commission.
    I currently serve as the executive director and only staff 
for the commission. Our commission was created by the North 
Carolina General Assembly in 2012 and was reconfigured in 2013 
during the passage of our safe harbor law.
    The commission consists of 12 appointed members and 3 ex-
officio judicial seats. Of the 12 voting members, 4 are 
appointed by the Governor, 4 by the North Carolina speaker of 
the House of Representatives, and 4 by the North Carolina 
president pro tempore of the Senate.
    The statutory charge of the commission is summarized as to 
apply for and receive funding on behalf of the State to fund 
and facilitate research, to assist in creating measurement, 
assessment, and accountability mechanisms, to inform and 
educate law enforcement personnel, social service providers, 
and the general public, to suggest new policies, procedures, 
legislation, and to assist in developing regional response 
teams or coordinated efforts, and to identify gaps and 
recommend solutions.
    So since 2014, the commission has participated in several 
State, regional, and National roundtables or compendiums. In 
addition, we have also invited regional response programs and 
providers from the mountains to the coast to share trends they 
are seeing as well as their program strengths and needs.
    These experts and many others have given us tremendous 
insight into gaps across the State and ways to address those 
gaps.
    Additionally, State and National experts as well as 
survivors have provided key information and advice for 
potential changes.
    Informed by these stakeholders, the Human Trafficking 
Commission has launched efforts, partnerships, and projects to 
make steps toward fulfilling our statutory charge.
    Some of our successes have been conducting a State-wide 
multidisciplinary symposium annually for the past 3 years, 
distribution of $1.35 million in direct service grants through 
a one-time State appropriation, mandatory posting of awareness 
posters in 19,000 locations across the State, and multiple 
legislative actions that strengthen our law or create remedies 
for victims.
    Although colleagues beside me today will add much more 
detail regarding the trends being seen across North Carolina, I 
can tell you that our State continues to see cases of both sex 
and labor trafficking crossing all demographic lines.
    Stories from steadfast providers in the field continue to 
indicate numerous industries in which cases are being 
identified and the opioid epidemic continues to further 
complicate case management and outreach efforts.
    While working in the field of human trafficking can be 
exhausting, I can also speak to how inspirational it is to have 
dedicated law enforcement, service providers, and community 
members working alongside each other daily.
    I would like to highlight two of the collaborations seen 
within the State. These examples include Federal, State, and 
local levels all working in tandem.
    First, the process of drafting a State-wide human 
trafficking resource directory has demonstrated to us that 
there is, roughly, 24 multi-disciplinary regional response 
programs, task forces on a local level, or local coalitions 
working across the State.
    These are groups of both government and non-government that 
are either providing 24/7 response to the National Human 
Trafficking Hotline, are coordinating providers in order to 
ensure wraparound services, or are strategically planning 
action in areas of their community.
    A second partnership example is the North Carolina 
Coalition Against Human Trafficking, or NCCAHT, as we call it. 
In its original grassroots form, this organization consisted of 
committed advocates, law enforcement, and service providers 
meeting regularly as an informal membership.
    These professionals initiated projects aimed at building 
awareness and response across the State in the earlier days. 
The collective impact model of NCCAHT was monumental in the 
establishment of the Human Trafficking Commission and NCCAHT 
holds a seat on the commission.
    Other State-wide projects, research, and grants have also 
included the commission and NCCAHT as part of their advisory 
committees, which then continues to enhance the collective 
impact at both a macro and a micro level in the State.
    As you know all too well, large issues such as this one are 
met with many obstacles. It seems prudent to share some of 
those challenges facing North Carolina. One main challenge is 
with State-wide mobilization and action is funding.
    The commission is currently staffed with the State 
appropriation that ends before the fiscal year closes. Not only 
does the commission need reoccurring funding to continue 
progress toward its statutory charge, but our State desperately 
needs a State-funded task force to ensure cases are taken from 
initial identification to proper and full victim service 
provision and, finally, to prosecution of the trafficker.
    Furthermore, we also believe that it is critical to address 
prevention efforts and prioritize those in funding as well.
    Although many States--although as with many States, another 
issue facing us is lack of comprehensive services throughout 
the State.
    While we have a few NGO's operating with Federal or State 
funding, there are still many, many gaps in service provision 
such as emergency and transitional housing.
    In addition, expansion of some services and development of 
additional specialties such as alternative therapies is a 
critical piece in the puzzle.
    So, in summation, human trafficking is sometimes referred 
to as a public health, a social justice, human rights, and a 
public safety issue.
    North Carolina recognizes that it will take everyone 
working together to end this horrific crime. It is vital that 
we continue these partnerships and collaborations. Thank you 
for the opportunity to testify today.
    We appreciate your interest and look forward to your 
questions.
    Thank you.
    [The prepared statement of Ms. Long follows:]
                Prepared Statement of Christine S. Long
                            October 28, 2019
    Good morning, Chairman Rose, Ranking Member Walker, and Members of 
the subcommittee. Thank you for the opportunity to testify before you 
today on this critically important topic. It is an honor to speak on 
behalf of the many dedicated professionals appointed to the North 
Carolina Human Trafficking Commission. I currently serve as the 
executive director, and only staff, for the commission. Our commission 
was created by the North Carolina General Assembly in 2012 and was 
reconfigured in 2013 during the passage of our Safe Harbor Law. Regular 
meetings, as a permanent commission, began in March 2014.
    The commission consists of 12 appointed members and 3 ex-officio 
judicial seats. Of the 12 voting members, 4 are appointed by the 
Governor, 4 by the NC Speaker of the House of Representatives, and 4 by 
the NC President Pro Tempore of the Senate. The statutory charge of the 
commission is as follows:
    1. To apply for and receive funding, on behalf of the State, that 
        will assist in examining and countering the problem of human 
        trafficking in North Carolina;
    2. To commission, fund, and facilitate quantitative and qualitative 
        research to explore the specific ways human trafficking is 
        occurring in North Carolina and to assist in creating 
        measurement, assessment, and accountability mechanisms;
    3. To contribute to efforts to inform and educate law enforcement 
        personnel, social services providers, and the general public 
        about human trafficking so that traffickers can be prosecuted 
        and victim-survivors can receive appropriate services;
    4. To suggest new policies, procedures, or legislation to further 
        the work of eradicating human trafficking and to provide 
        assistance and review with new policies, procedures, and 
        legislation;
    5. To assist in developing regional response teams or other 
        coordinated efforts to counter human trafficking at the level 
        of law enforcement, legal services, social services, and 
        nonprofits; and
    6. To identify gaps in law enforcement or service provision and 
        recommend solutions.
    Since 2014, the commission has participated in several State, 
regional, and National roundtables, advisory committees, studies, 
collaboratives, and compendiums.
    Throughout the past 4 years, the commission has invited regional 
response programs and other providers from the mountains to the coast 
to share trends they are seeing, as well as their program strengths and 
needs. These experts, and many others, have given us tremendous insight 
into gaps across the State and ways to address the gaps. Additionally, 
State and National experts, as well as survivors, have provided key 
information regarding advice for potential policy changes or emerging 
practices in the field.
    Informed by these stakeholders, the Human Trafficking Commission 
has launched efforts, partnerships, and projects to make steps toward 
fulfilling our statutory charge.
    Some examples of Commission successes are listed below:
  <bullet> Establishment of mandatory law enforcement training.
  <bullet> Conducting State-wide multidisciplinary symposiums annually 
        the past 3 years. The conferences have featured different 
        tracks for professionals across the State using both National 
        speakers and State content experts.
  <bullet> Distribution of $1.35 million in direct service grants 
        through a State appropriation. These grants are helping launch 
        and expand the provision of services and response across the 
        State.
  <bullet> Issuing Standards for Direct Service Providers to use when 
        working with survivors.
  <bullet> Mandatory posting of an awareness poster in over 19,000 
        locations across the State.
  <bullet> Multiple legislative actions to strengthen child sexual 
        exploitation laws, create a civil remedy for victims, create a 
        sex tourism law, and expand post-conviction relief for victims 
        charged with a crime while being trafficked.
    Although colleagues beside me today will add much more detail 
regarding the trends being seen across North Carolina, I can tell you 
that our State continues to see cases of both sex and labor trafficking 
crossing all demographic lines. According to reports from the National 
Human Trafficking Hotline, our State has consistently ranked within the 
top 10 States for human trafficking. Stories from steadfast providers 
in the field continue to indicate numerous industries in which cases 
are being identified and the opioid epidemic continues to further 
complicate case management and outreach efforts.
    While working in the field of anti-human trafficking can be 
exhausting, I can also speak to how inspirational it is to have 
dedicated law enforcement, service providers, and community members 
working alongside each other daily. I would like to highlight 2 of the 
collaborations seen within the State. These examples include 
participants from Federal, State, and local levels working in tandem.
    First, the process of drafting a State-wide human trafficking 
resource directory has demonstrated there are roughly 24 
multidisciplinary regional response programs, local task forces, or 
local coalitions working across the State. These are groups of both 
Government and non-profits that are either providing 24/7 response to 
the National Human Trafficking Hotline, are coordinating providers in 
order to ensure wrap-around services for victims, or are strategically 
planning for action in specific areas of the movement in their 
communities. While the initial resource directory draft indicates 
roughly 60 non-governmental organizations (NGO's) involved in the 
movement, one-third are agencies offering to help victims as part of 
another program that is not specific to human trafficking and therefore 
is tailored to another population, such as homelessness, domestic 
violence, etc.
    A second partnership example is the North Carolina Coalition 
Against Human Trafficking (NCCAHT). In its original grassroots form, 
this organization consisted of committed advocates, law enforcement, 
and service providers meeting regularly as an informal membership. 
These professionals initiated projects aimed at building awareness and 
response across the State. The collective impact model of NCCAHT was 
monumental in advocating for the establishment of the Human Trafficking 
Commission, and NCCAHT holds a seat on the Commission. Other State-wide 
projects, research, and grants have also included the commission and 
NCCAHT as part of their advisory committees, which then continues to 
enhance collective impact at both macro and micro levels.
    As you each know all too well, large issues such as this one are 
met with many obstacles. It seems prudent to share some of the 
challenges facing North Carolina.
    One main challenge for State-wide mobilization and action is 
funding. The commission is currently staffed with a State appropriation 
that ends before the fiscal year closes. Not only does the commission 
need recurring funding to continue progress toward its statutory 
charge, but our State desperately needs a funded task force to ensure 
cases are taken from initial identification, to proper and full victim 
service provision, and finally to prosecution of the trafficker. 
Furthermore, we believe it is critical that prevention efforts be 
prioritized for funding.
    As with many States, another issue facing us is lack of 
appropriate, comprehensive services throughout the entire State. While 
we have a few NGO's operating with Federal funding such as the Office 
of Victim's Crime grants or with State funding through Governor's Crime 
Commission grants, there are still gaps in service provision such as 
emergency and transitional housing. Expansion of such services and 
development of additional specialties, e.g., alternative therapies, is 
a critical piece in this puzzle.
    Last, data collection is a discussion often brought up as a barrier 
to preparing adequately for future needs in capacity building, or as a 
barrier to obtaining funding. Since this is a hidden and complex crime, 
collecting reliable and unduplicated data from multiple sectors that 
are each coming into contact with victims is a difficult challenge.
    In summation, human trafficking is sometimes referred to as a 
public health, social justice, human rights, and public safety issue. 
North Carolina recognizes that it will take everyone working together 
to end this horrific crime. It is vital that we continue these 
partnerships and collaborations.
    Thank you for the opportunity to testify today. We appreciate your 
interest and I look forward to answering your questions and to future 
collaborations with Members of the subcommittee to address this urgent 
problem.

    Mr. Rose. Thank you for your testimony.
    I now recognize Mr. Ronnie Martinez to summarize his 
statement for 5 minutes.

   STATEMENT OF RONNIE A. MARTINEZ, SPECIAL AGENT IN CHARGE, 
HOMELAND SECURITY INVESTIGATIONS, CHARLOTTE FIELD OFFICE, U.S. 
  IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Martinez. Thank you, Chairman Rose.
    Good morning, Chairman Rose, Ranking Member Walker. It is 
an honor to be here to represent Homeland Security 
Investigations--HSI.
    I can attest to HSI's continued commitment to identifying 
and assisting human trafficking victims and bringing 
traffickers to justice.
    I am particularly pleased to be here as a special agent in 
charge of the new HSI Charlotte office. On average, HSI 
conducts 1,000 human trafficking investigations annually.
    HSI identifies and assists hundreds of victims and conducts 
extensive local outreach and training to generate leads.
    However, we do not and cannot do this important work alone. 
HSI participates in more than 120 human trafficking task forces 
consisting of Federal, State, and local law enforcement as well 
as non-Governmental victim service providers.
    In North Carolina specifically, HSI participates in 3 task 
forces in Charlotte, Winston-Salem, and Raleigh, these covering 
the State's 3 Federal judicial districts.
    These task forces have been extremely successful in 
identifying and dismantling human trafficking networks. 
Together, with our law enforcement partners we have increased 
arrests, indictments, prosecutions of traffickers in North 
Carolina and abroad.
    Together with our NGO partners, human trafficking victims 
have received critical and comprehensive social services.
    HSI's human trafficking mission is two-fold: No. 1, to 
proactively identify cross-border trafficking organizations and 
minimize the risk they pose to National security and public 
safety, and No. 2, to employ a victim-centered approach whereby 
equal value is placed on the identification and stabilization 
of victims as well as the investigation and prosecution of 
traffickers.
    Law enforcement as a whole is much better at identifying 
and tackling sex trafficking. However, labor trafficking is 
just as insidious as sex trafficking but much harder for us to 
find.
    For decades now HSI has been seeing the same types of cases 
involving agriculture, construction, domestic work, restaurants 
and massage parlors--essentially, jobs with low pay and fewer 
legal protections in the underground economy and in the service 
industry.
    When I recently assumed the duty of special agent in charge 
for North and South Carolina, I learned about a particularly 
horrendous HSI investigation in North Carolina from 2012.
    In 2012, a sex trafficker named Shahid Hassan Muslim forced 
a 16-year-old to have sex with as many as 12 men per day. After 
almost a year, she escaped. But in revenge, Muslim tracked her 
down and held her captive for days while physically assaulting 
her.
    This was also a threat to 5 other young women Muslim was 
trafficking that same--that the same would happen to them if 
they had tried to leave him.
    A total of 18 minors and young women, both United States 
citizens and foreign nationals, were identified as victims in 
this joint investigation by HSI, FBI, and the Charlotte-
Mecklenburg Police Department.
    I chose to illustrate this case today for a few reasons. 
First, there are trafficking cases that involve the recruiting 
and smuggling of victims into the United States for the 
purposes of their exploitation.
    However, Muslim's case is one of many where his victims 
were both United States citizens and were long-time lawfully 
present immigrants in our communities.
    Traffickers will exploit anyone out of greed. Second, 
criminals, including sex traffickers, are becoming increasingly 
savvy to use technology to conduct and conceal their insidious 
activities.
    Muslim was prolific in his use in on-line advertising, 
social media for recruitment, and on-line companies to conceal 
his movements. HSI is committed to staying on pace with cyber 
crime investigative strategies. Third, HSI provides victims 
with an array of referrals for comprehensive services.
    As a result, one of the victims now is on a pathway to 
United States citizenship. Another victim recently graduated 
from college and her graduation was attended by the case agent 
and a social worker.
    We have seen time and time again that law enforcement 
officers who work with victim assistance personnel are more 
stable victim witnesses and stronger investigations.
    More importantly, the victims of these nefarious crimes 
have statistically better chances to rebuild their lives.
    I want to thank you for highlighting human trafficking and 
law enforcement efforts and I thank you for this opportunity to 
appear before you today and I look forward to answering your 
questions.
    [The prepared statement of Mr. Martinez follows:]
                    Statement of Ronnie A. Martinez
                            October 28, 2019
                              introduction
    Chairman Rose, Ranking Member Walker, and distinguished Members of 
the subcommittee. Thank you for the opportunity to appear before you 
today to discuss the role of U.S. Immigration and Customs Enforcement 
(ICE) in investigating human traffickers and protecting victims. 
Fighting all forms of modern-day slavery is one of ICE's top 
operational goals, specifically to disrupt and dismantle organized 
human trafficking. As one of 30 special agents in charge, I can attest 
to the pervasiveness of the crime, as well as the vital role ICE's 
Homeland Security Investigations (HSI) plays in investigating human 
trafficking crimes, assisting victims, and bringing perpetrators to 
justice. I am also honored to have our partners in the fight against 
human trafficking on the panel with me today.
    ICE HSI is the leader in combatting transnational criminal 
organizations engaged in human trafficking. ICE HSI conducts more than 
1,000 human trafficking investigations annually, identifies and assists 
hundreds of victims, conducts extensive local outreach and training to 
generate leads, and trains foreign law enforcement partners on human 
trafficking through International Law Enforcement Academies (ILEA). As 
a lead Federal law enforcement agency responsible for investigating 
human trafficking, we leverage our global operational apparatus of more 
than 200 domestic offices and 78 international offices in 52 countries. 
This global footprint allows HSI to be strategically situated to work 
with law enforcement partners, as well as non-governmental 
organizations, which bring human trafficking tips and leads to HSI 
special agents world-wide.
    The mission of our human trafficking investigations is two-fold: 
(1) To proactively identify cross-border criminal trafficking 
organizations and prioritize investigations according to the degree of 
risk posed by each to National security and public safety--HSI targets 
human trafficking organizations with the goal of disrupting and 
dismantling the organization and seizing their illegally obtained 
assets to remove the profit incentive; and (2) to employ a victim-
centered approach, where equal value is placed on victim identification 
and stabilization, as on the investigation and prosecution of 
traffickers. ICE HSI as an agency is first and foremost concerned with 
protecting the victim and, therefore, identifying and assisting them is 
paramount.
    To accomplish its anti-trafficking mission, ICE HSI works in close 
coordination with other components of DHS, law enforcement agencies at 
the local, Tribal, State, and Federal levels, as well as foreign law 
enforcement, non-governmental organizations (NGO's), victim service 
providers, and private industry to protect victims, investigate and 
prosecute offenders, and prevent trafficking from occurring. ICE HSI 
Special Agents and Victim Assistance personnel are directly supported 
by key ICE headquarters programs, including the Human Trafficking Unit 
(HTU), the Victim Assistance Program (VAP), the Parole and Law 
Enforcement Programs Unit (PLEPU), the Forced Labor Program, and the 
Child Exploitation Investigations Unit.
           strategic approach to combating human trafficking
    The counter-trafficking strategy ICE HSI employs is rooted in 
prevention, protection, prosecution, and partnership. Our victim-
centered approach relies on close coordination with the Victim 
Assistance Program to connect survivors with service providers. We seek 
to aggressively target human traffickers using a comprehensive 
approach. Our emphasis on partnerships involves significant 
coordination, outreach, and coalition-building efforts. This strategy 
is a force multiplier and has paid dividends in successful 
prosecutions, as well as in identifying and assisting victims.
    ICE HSI has dedicated human trafficking investigative groups in 
each of the special agent in charge field offices with subject-matter 
experts in outlying offices as well. These specialized agents 
participate in more than 120 human trafficking task forces Nation-wide 
consisting of Federal, State, and local law enforcement, as well as 
victim service providers. Moreover, ICE HSI has participated 
extensively in the interagency Anti-Trafficking Coordination Team 
(ACTeam) Initiative, along with the DOJ's Human Trafficking Prosecution 
Unit, the U.S. Department of Labor, the U.S. Department of State (DOS), 
and the Federal Bureau of Investigation, convening Anti-Trafficking 
Coordination Teams in 12 competitively-selected cities to proactively 
develop and advance significant, high-impact Federal human trafficking 
investigations and prosecutions. In addition, local law enforcement 
agencies detail officers to ICE HSI human trafficking groups to work 
full-time with ICE HSI Special Agents on trafficking investigations.
    As part of ICE HSI's Trafficking in Persons Strategy, we also 
conduct a significant amount of outreach in order to generate leads 
from the organizations to which victims are likely to trust, confide, 
and report the crime. Annually, this strategy results in several 
thousand contacts with other law enforcement, NGO's, and community 
organizations concerning human trafficking within the United States. 
This routinely involves hundreds of training/engagement events with 
NGO's and law enforcement.
    ICE HSI has created a new outreach initiative called STOP 
(Strategic Trafficking Outreach Program) to strategically target 
industries that have been found to be associated with human 
trafficking. This new initiative will raise awareness within these 
industries, identify additional victims that have previously gone 
unreported, and increase prosecution of traffickers.
    ICE HSI is a key partner of the Blue Campaign along with other 
components, such as U.S. Citizenship and Immigration Services (USCIS), 
U.S. Customs and Border Protection (CBP), the Federal Law Enforcement 
Training Centers (FLETC), Transportation Security Administration (TSA), 
Office for Civil Rights and Civil Liberties (CRCL) and the United 
States Coast Guard (USCG). The Blue Campaign is a National awareness 
campaign to: (1) Educate the public, law enforcement, and other 
institutions on human trafficking in the United States; and (2) to 
increase understanding of the indicators of human trafficking, and to 
appropriately recognize and respond to possible cases of human 
trafficking. Working in collaboration with first responders, 
governmental, non-governmental, and private-sector organizations, the 
Blue Campaign magnifies this important, National public outreach. 
Additionally, FLETC has developed a new Human Trafficking Awareness 
Training course, which will be made available to Federal, State, local, 
Tribal and campus law enforcement Nation-wide to assist ICE HSI in 
raising much-needed basic awareness of this crime.
    In addition to providing basic and advanced training to 
investigators in the United States, we also provide a substantial 
amount of international human trafficking training, which is delivered 
to foreign law enforcement, prosecutors, and victim service providers 
in collaboration with ICE Attache offices typically from more than 70 
countries annually. Working with DOS, we also coordinate and train at 
numerous events at ILEAs and U.S. embassies world-wide. The training 
includes our efforts to combat human trafficking, investigative 
techniques, bilateral investigations, indicators of human trafficking, 
victim identification, and victim assistance with a focus on building 
the capacity to conduct human trafficking investigations with host 
country authorities.
                 the global scope of human trafficking
    Human traffickers exploit domestic and foreign National victims in 
the United States, and traffickers exploit victims from the United 
States abroad. Human traffickers and victims can be of any age, race/
ethnicity, sex, gender identity, nationality, immigration status, 
cultural background, socio-economic class, and education attainment 
level. Traffickers can be relatives, family friends, gang members or 
associated with transnational criminal organizations, and they can 
operate alone or in groups. Traffickers use various forms of force, 
fraud, and coercion to control and exploit victims, including debt 
bondage, fraudulent employment opportunities, false promises, violence, 
and threats of violence. Human trafficking occurs in both legal and 
illegal industries, and may intersect with other criminal activity, 
such as drug trafficking, migrant smuggling, or money laundering. 
Though clandestine by nature, it is an extremely lucrative illicit 
activity with estimated annual global profits of $150 billion, 
according to the International Labour Organization.
               challenges to combatting human trafficking
    To minimize risk and maximize profitability, traffickers work to 
preserve the clandestine nature of the crime by creating agile 
networks, adapting to profit and risk environments, and adopting 
advanced technologies. These characteristics make it difficult to 
detect and, as a result, difficult to gather quality information. We 
are constantly working to improve detection of human trafficking cases 
to make the crime less clandestine and to ensure we are equipped to 
identify potential victims, traffickers, hot spots, and transportation 
routes. For example, we've enhanced our training at the Federal Law 
Enforcement Training Centers (FLETC) to include mandated human 
trafficking training for new agents.
    Immigration status is often perceived to be a barrier to reporting 
suspected human trafficking. Some victims and/or their service 
provider/attorney do not call police, file a case, etc., because of 
fear of deportation/immigration enforcement. A wide range of crimes are 
unreported or underreported and have become harder to investigate when 
the victims are immigrants or have limited English proficiency. Foreign 
national victims are not always aware of their eligibility for certain 
legal benefits and services. A victim-centered approach requires we 
have policies and practices in place to protect trafficking victims 
from being susceptible to removal.
    Statistically, there are fewer labor trafficking investigations 
because of the difficulty in detecting labor trafficking and separating 
it from other forms of labor exploitation and workplace violations. It 
can be especially difficult to detect, investigate, and prosecute for a 
number of reasons, including isolation of the victims, limited sources 
of corroborating evidence, and challenges in earning the trust of 
victims in order to elicit their statements. Not all law enforcement is 
sensitive to a trauma-informed, victim-centered approach, or 
appreciative of the full spectrum of human trafficking (not just sex 
trafficking, but labor trafficking as well). Also, many victims do not 
see themselves as victims. Consistent, survivor-informed training 
across law enforcement should be standardized (including terminology, 
typology, etc.) and continually updated, drawing on the expertise 
offered by survivors themselves.
    Law enforcement should also be cognizant that the justice law 
enforcement seeks for a victim is not always the justice a victim seeks 
for themselves. It is not just about prosecuting the traffickers. 
Sometimes victims want to be removed from the situation and stabilized 
and move on with their life. Not every trafficking victim wants to play 
a role in holding the trafficker accountable.
    We continue to engage with foreign counterparts to develop anti-
trafficking strategies in their respective regions.
                     the victim assistance program
    Our Victim Assistance Program (VAP) provides overall guidance on 
victim assistance and is a resource to all ICE programs for training, 
technical assistance, and monitoring compliance with Federal crime 
victim assistance statutes and the Attorney General Guidelines for 
Victims and Witness Assistance. VAP is also a critical resource to ICE 
HSI investigations and the ensuing criminal prosecutions by 
safeguarding victims' rights and ensuring access to the services to 
which they are entitled by law, as well as providing the assistance 
they need so that they can participate actively and fully in the 
criminal justice system process. VAP personnel respond to victims' 
issues in a wide range of Federal crimes, including human trafficking, 
child pornography, child sex tourism, child sex trafficking, white 
collar crime, and human rights abuses.
    HSI Victim Assistance Specialists support our approximately 6,100 
Special Agents and train them on victims' rights, immigration relief 
for foreign national victims, human trafficking, child exploitation, 
forensic interviewing, and other victim issues. Victim Assistance 
Specialists also assist victims with resources and service referrals 
for Federal, State, and local crime victim services, as well as 
referrals to non-governmental and community-based victim service 
providers. In addition to assistance for victims, another service 
provided by the VAP is the Victim Notification Program and hotline, 
which provides, for those prior victims who register, notifications of 
the release from incarceration or removal of criminal alien offenders.
    Along with the Victim Assistance Specialists, VAP includes Forensic 
Interview Specialists to conduct legally-defensible, victim-sensitive, 
fact-finding, forensic interviews, which are developmentally 
appropriate and take into account the victim's age, language skills, 
mental health, and learning capacity.
    We would like to thank Congress for appropriating $7.5 million for 
the expansion of HSI Victim Assistance Program in 2019, which assisted 
HSI in creating new Victim Assistance-related positions. The overall 
expansion resulted in a 400 percent increase of our Forensic Interview 
program going from 6 to 30 Forensic Interview Specialists, as well as 
an increase of our Victim Assistance Specialists from 26 to 34 
positions Nation-wide.
                            making an impact
    Working closely with its partners, to include prosecutors at the 
local, State, and Federal levels, ICE HSI has been able to make a 
significant difference and move forward U.S. counter-trafficking 
efforts. In the last 2 years, we have initiated nearly 2,000 human 
trafficking cases, resulting in the identification and assistance of 
almost 1,000 human trafficking victims and over 3,000 criminal arrests, 
and 1,200 convictions. In fiscal year 2018, 849 human trafficking cases 
were initiated, resulting in 1,588 criminal arrests, 833 indictments 
and 538 convictions. Fiscal year 2019 statistics are still being 
consolidated and finalized, but preliminary reporting indicates 
increases from fiscal year 2018 across all 4 of these metrics.
    One example of our efforts with Mexico is the cross-border 
initiatives to target transnational criminal organizations (TCOs) 
responsible for sex trafficking of Mexican women in the United States. 
Mexico is the country of origin of the largest number of foreign-born 
human trafficking victims identified in the United States. In response 
to numerous Federal investigations and prosecutions of trafficking 
networks operating across the U.S.-Mexico border, DOJ and DHS launched 
the U.S.-Mexico Bilateral Human Trafficking Enforcement Initiative to 
enhance collaboration with Mexican law enforcement counterparts in 
order to more effectively combat trans-border trafficking threats. 
Through this initiative, U.S. and Mexican authorities exchange leads 
and intelligence to dismantle transnational trafficking networks 
through high-impact prosecutions in both the United States and Mexico.
    In addition to coordinating the development of bilateral 
investigations and prosecutions, DOJ, DHS, and their Mexican law 
enforcement counterparts engage in extensive exchanges of expertise and 
case-based mentoring to advance best practices in victim-centered 
enforcement strategies. The initiative has achieved significant 
results: U.S. Federal prosecutions of over 170 defendants; Mexican 
State and Federal prosecution of over 30 associated defendants; 
extradition of 8 defendants from Mexico to the United States to face 
charges; identification of and assistance to more than 200 victims; and 
recovery of over 20 victims' children from the trafficking networks' 
control. We have coordinated bilateral enforcement actions to apprehend 
co-conspirators on both sides of the border.
      immigration options for foreign victims of human trafficking
    Short- and long-term immigration options assist law enforcement in 
stabilizing victims, which can lead to improved cooperation with law 
enforcement and humanitarian relief to victims. ICE HSI can provide 
Continued Presence (CP) to victims, an important law enforcement tool 
that allows a ``victim of a severe form of trafficking,'' who may be a 
potential witness to such trafficking, to remain in the United States 
to facilitate an investigation or prosecution of human trafficking-
related crimes. CP provides for the temporary deferral of removal 
actions, along with temporary work authorization and potential access 
to public benefits and services through the Department of Health and 
Human Services certification process. It also allows victims to remain 
in the United States while pursuing a civil action against their 
traffickers.
    CP is vital to law enforcement efforts to combat human trafficking. 
It is a necessary means of stabilizing victims so they can cooperate as 
witnesses in bringing traffickers to justice. CP may be granted for an 
initial period of 2 years and may be renewed multiple times for up to 2 
years per renewal to facilitate an investigation or prosecution against 
traffickers. The appropriate application of CP can lead to more 
successful prosecutions of traffickers and can increase the odds of 
identifying and rescuing more victims. USCIS can also provide longer-
term immigration relief and employment authorization to certain 
qualifying victims of severe forms of trafficking through T 
nonimmigrant status, also known as the T visa, and victims of certain 
qualifying crimes (including human trafficking) through U nonimmigrant 
status, also known as the U visa. T and U nonimmigrant status are 
generally granted for 4 years and may be extended in certain 
circumstances.
                               conclusion
    ICE HSI remains committed to utilizing its authorities and 
resources to arrest human traffickers and identify and assist the 
victims of this horrific crime. We will build upon the successes of our 
outreach and victim-centered approach, and share our lessons learned 
and expertise to expand the global fight against this horrific crime. 
We will continue to disrupt and dismantle the criminal organizations 
engaged in human trafficking until we end the threat that human 
trafficking poses.
    Thank you again for the opportunity to appear before you today and 
for your continued support of ICE HSI and its law enforcement mission. 
I would be pleased to answer any questions.

    Mr. Rose. Thank you for your testimony.
    I now recognize Mr. Carl Wall to summarize his statement 
for 5 minutes.
    Mr. Walker. Mr. Wall, I hate to interrupt you there but I 
want to make sure that your mic is working. Is that something 
that we can check to make sure that doesn't--I know many that 
is not----
    OK. I think we are on. Just speak as much as you can to the 
mic.
    Thank you.

 STATEMENT OF CARL L. WALL, II, SPECIAL AGENT IN CHARGE, NORTH 
 CAROLINA STATE BUREAU OF INVESTIGATION, HUMAN TRAFFICKING UNIT

    Mr. Wall. OK. Thank you, sir.
    Mr. Walker. Thank you.
    Mr. Wall. My name is Carl Wall and I am the special agent 
in charge of North Carolina State Bureau of Investigation Human 
Trafficking Unit.
    For more than 26 years, I have had the honor of serving 
North Carolina as a law enforcement officer and the last 21 as 
a special agent with the SBI.
    In 2017, the North Carolina General Assembly gave the SBI 
original jurisdiction in human trafficking. In 2018, the SBI 
began efforts to establish a unit to combat human trafficking 
in North Carolina.
    In July of that year, I was assigned as the SAC of the 
Human Trafficking Unit. My goals were to provide training, both 
basic and advanced, to identify and support and rescue victims, 
and identify and bring to justice traffickers, and also to 
coordinate with local and Federal law enforcement.
    Currently, I am the only full-time human investigation or 
human trafficking agent within our agency. The SBI has lobbied 
for more agents with the General Assembly.
    In our pending State budget, the General Assembly has 
designated funds for 8 full-time human trafficking agents. If 
our Governor signs the budget, we will have a full-time unit to 
serve the citizens of North Carolina.
    When I began this position, I had no experience or prior 
knowledge of human trafficking. I attended every training and 
conference I could find to learn what human trafficking looks 
like, especially in our State of North Carolina.
    I have also learned from others--other agencies, including 
the Florida Department of Law Enforcement, Tennessee Bureau of 
Investigation, the South Carolina Law Enforcement Division, and 
the Georgia Bureau of Investigation--as to what their States do 
to combat human trafficking.
    Many of these agencies exceed North Carolina in resources 
allocated to combat human trafficking, the understanding of the 
crime, and the structure of the response.
    Many have protocols and excellent working relationships 
between Federal and State and local agencies to include 
nongovernmental organizations to make human trafficking cases 
seamless in their investigations and response to victims.
    In 2017, as you have pointed out, Ranking Member, North 
Carolina was ranked from the Polaris Project as being eighth in 
the Nation with human trafficking tips reported.
    That year in 2017, we had 221 cases reported, 149 of them 
sex-related, 51 of them labor-related. In 2018, there were 287 
tips reported. A hundred and ninety-two of them related to sex, 
54 related to labor, which ranked us tenth in the Nation.
    Although these reports appear to be low, these are just 
tips reported to Polaris, which were agreed to be shared with 
law enforcement.
    I have learned through active communication with local 
service providers, A Safe Place in Wilmington, North Carolina, 
that they alone had serviced over 190 victims in 2018.
    So what is the accurate data? It is my belief that the 
actual numbers are much higher than Polaris reports and as we, 
as a State, simply don't know the real number of victims in 
North Carolina; we need to find out.
    The SBI's intelligence analyst Ashley Burke was asked to 
evaluate the number of sex-related advertisements on the 
internet specific to North Carolina. On just one website--Skip 
the Games--we discovered that in 2018 there were over 400,000 
ads specific to North Carolina.
    It is evident that North Carolina, like other States, has a 
human trafficking issue that law enforcement is behind in 
effectively combating it.
    To date, the Fayetteville Police Department is the only one 
agency that has a full-time human trafficking unit in the 
State. They have 4 full-time officers working human trafficking 
cases and have been extremely successful.
    North Carolina is unique as we are still educating 
officers, chiefs, and sheriffs that human trafficking exists 
and it is our mission at the SBI to educate and assist them in 
coordinating investigations and rescuing victims.
    At a recent Police Executive Research Forum--the PERF round 
table--I explained that not everyone in North Carolina 
recognizes human trafficking and that the victims are truly 
victims and not suspects in a prostitution case.
    I have found that the best way to relate to local law 
enforcement's misunderstanding of human trafficking is to 
explain to them from my point of view as a previous drug 
investigator.
    Traffickers are like drug dealers. They are business 
people. Rather than selling narcotics, their commodity is 
another human being.
    Sadly, people are a commodity that do not have--that they 
do not have to replenish. Their product doesn't go away when 
they sell it. They can profit over and over.
    During classes that we teach all over the State we make 
sure to show human trafficking is not just in our most 
populated areas as some assume, but it is everywhere.
    Attached is attachment number 2. It is a map of the State 
of North Carolina that shows how many ads are specific to each 
selected city. Even rural communities in North Carolina are not 
immune from this heinous crime.
    When I hear someone say the victim could leave or run at 
any time they wanted, they are not a victim, I explain to them 
I have yet to have a victim tell me that they chose to be a 
prostitute when they grew up. It doesn't happen. These are 
victims controlled by force, fraud, coercion from the 
traffickers.
    Over the past 15 months, the SBI has conducted over 20 
trainings covering 15 counties with more scheduled. In the 15 
months, the SBI has gone from conducting approximately 18 human 
trafficking investigations to having opened 61 cases to date.
    We have 14 SBI agents who have volunteered to have a 
collateral duty in addition to their regular duty to 
investigate human trafficking, and, of course, this comes as a 
secondary duty only to their original assignments.
    As the SBI moves forward in establishing a full-time human 
trafficking unit, we continue to train, educate, and conduct 
proactive investigations. We do this in collaboration and 
partnerships with local and Federal agencies.
    In the past 15 months the SBI has conducted 10 proactive 
operations in which we have encountered over 45 victims of 
human trafficking.
    With our partnerships and collaborations, we have been able 
to offer these victims services to get them out of their 
current situation and we have identified and began to identify 
and investigate the traffickers and bring them to justice.
    Partnerships and collaboration is the only way you can 
investigate this crime. It is like no other. With law 
enforcement we must work together with our NGO's to conduct a 
successful investigation.
    It is the only crime that law enforcement needs and relies 
on others for a successful case. When the SBI began this unit 
in 2018, the first thing I did was personally go and visit our 
Federal partners in each area of responsibility.
    I met with the RAC of each Homeland Security Investigations 
Office and explained the SBI's mission and what our goals are. 
Each office has been more than helpful in assisting the SBI's 
mission.
    I have also met and described our mission to each of the 
RAC offices with the FBI within North Carolina. They, too, have 
been very supportive and inclusive.
    The Federal agencies have been imperative in the creation 
and the success of the SBI's current mission.
    In each of our human trafficking outreach operations and in 
most of our investigations there has been a positive 
interaction with Federal and local law enforcement.
    We are here to support each other with the same goals of 
supporting victims and helping them get out of the life and 
bring to justice the traffickers.
    This partnership is key. We must all share our data and our 
information because the traffickers know no boundaries. We must 
work hand-in-hand with our NGO partners and make sure to 
include them as we move forward in this effort to end human 
trafficking.
    On average, it takes 6 encounters with law enforcement and 
NGO's to get a victim to understand that their normal is not 
normal and to show them a better way without a trafficker.
    So we all must work diligently and continuously together to 
make a difference in North Carolina. As we move forward with a 
full-time human trafficking unit for the SBI, I am proud to 
lead the charge for our agency.
    I am proud to have partners such as HSI and FBI and our 
local law enforcement as we tackle this hideous crime. In my 
26-plus years in law enforcement, I have seen many gruesome 
crimes.
    I have dealt with murderers, rapists, ruthless narcotic 
organizations. But until this assignment, I had never seen the 
violence, both physical and mental, the sickness, and the 
controlling that a trafficker has over a victim.
    A victim is another human being. A victim has the potential 
to be successful, a proactive person to society, and humanity 
has been taken away by someone else.
    The crime of human trafficking has always existed in some 
form. We must turn our lens of our views as to what it is, 
where it is, and how we go about changing it.
    No longer should we look at these individuals as choosing 
to sell themselves for sex. They are victims of human 
trafficking.
    In closing, I am proud to be the one to hopefully make a 
change in human trafficking in North Carolina. I hope in my 
final years of law enforcement we can see the success that the 
SBI and all the partners hoped for.
    I hope to have a full-time unit that makes a huge impact on 
this crime. Our number of reported victims will rise and we 
want those numbers to rise that will show how serious the issue 
we have.
    If the numbers rise, then we know the public, law 
enforcement, and everyone is seeing the crime for what it 
really is and not being ignored or misidentified.
    Thank you to the Members of the committee for allowing me 
to testify today and I look forward to your questions.
    [The prepared statement of Mr. Wall follows:]
                 Prepared Statement of Carl L. Wall, II
                            October 28, 2019
    Good morning, Chairman Bennie Thompson, Ranking Member Mike Rogers, 
and Members of the subcommittee. Thank you for the opportunity to 
testify before you today on the issues of human trafficking in North 
Carolina. It is an honor to speak on behalf of the dedicated 
professionals of the North Carolina State Bureau of Investigation 
(NCSBI). My name is Carl Wall; I am the special agent in charge (SAC) 
of the NCSBI's Human Trafficking Unit. For more than 26 years I have 
had the honor of serving North Carolina as a law enforcement officer, 
the last 21 years as a special agent with the NCSBI. I have held many 
roles over my career as drug agent, Drug Enforcement Administration 
(DEA) task force officer, assistant special agent in charge, and 
special agent in charge. I was previously the SAC of the SBI's Training 
Section before this assignment as the SAC of the Human Trafficking 
Unit.
    In 2017, the North Carolina General Assembly gave the NCSBI 
original jurisdiction of human trafficking investigations. In 2018, the 
NCSBI began efforts to establish a unit to combat human trafficking in 
North Carolina. In July of that year I was assigned as the SAC of the 
Human Trafficking Unit. My goals were to provide training, both basic 
and advanced to identify, support, and rescue victims, and identify and 
bring to justice traffickers, and to coordinate with local and Federal 
law enforcement. Currently, I am the NCSBI's only full-time human 
trafficking agent. The SBI has lobbied for more agents to the NC 
General Assembly. In our pending State budget, the General Assembly has 
designated funds for 8 full-time human trafficking agents. If our 
Governor signs the budget, we will have a full-time unit to serve the 
citizens of North Carolina.
    When I began this position, I had no experience with or prior 
knowledge of human trafficking. I attended every training and 
conference I could find to learn what human trafficking looks like. I 
also learned from other agencies including the Florida Department of 
Law Enforcement, the Tennessee Bureau of Investigation, the South 
Carolina Law Enforcement Division, and the Georgia Bureau of 
Investigation as to what their States do to combat human trafficking. 
Many of these agencies exceed North Carolina in resources allocated to 
combat trafficking, understanding of the crime, and structure of 
response. Many have protocols and excellent working relationships 
between Federal, State, and local agencies to include Non-Governmental 
Organizations (NGO) to make human trafficking cases seamless in their 
investigation and response to victims.
    In 2017, North Carolina was ranked by the National Human 
Trafficking hotline (Polaris Project) as being eighth in the Nation for 
number of human trafficking tips reported. Polaris reported that NC had 
221 reported tips, 149 of them sex-related, and 51 labor-related. In 
2018 Polaris reported we had 287 tips, 192 of them related to sex 
trafficking and 54 related to labor trafficking, which ranked us tenth 
in the Nation for reported tips. Although these reports may appear to 
be low, these are just the tips reported to Polaris, which were agreed 
upon to share with law enforcement. I have learned through active 
communication with a local service provider, A Safe Place in 
Wilmington, NC that they had reported serving over 190 victims in 2018. 
So, what is the accurate data? It is my belief that actual numbers are 
much higher than Polaris reports, and as a State we simply don't know 
the real number of victims in North Carolina. Our intelligence analyst, 
Ashley Burke, evaluated the number sex-related advertisements on the 
internet specific to North Carolina. On just one website (Skip the 
Games) we discovered that in 2018 there were over 400,000 ads specific 
to North Carolina. (See Attachment No. 1)
    It is evident that North Carolina, like other States, has a human 
trafficking issue and law enforcement is behind in effectively 
combatting it. To date, the Fayetteville Police Department is the only 
agency that has a full-time Human Trafficking Unit. They have 4 full-
time officers working human trafficking cases and have been extremely 
successful. North Carolina is unique, as we are still educating 
officers, chiefs, and sheriffs that human trafficking exists and it's 
our mission at the NCSBI to educate and assist them with conducting 
investigations and rescuing victims. At a recent Police Executive 
Research Forum (PERF) roundtable, I explained that not everyone in 
North Carolina recognizes human trafficking and that the victims are 
truly victims and not suspects in a prostitution case. I have found the 
best way to relate to the local law enforcement's misunderstanding of 
human trafficking is to explain to them from my point of view as a 
previous drug investigator. Traffickers are like drug dealers, they are 
business people. Rather than selling narcotics, their commodity is 
another human being. Sadly, people are a commodity that they don't have 
to replenish; their ``product'' doesn't go away when they sell it. They 
can profit over and over.
    During classes that we teach all over the State we make sure to 
show that human trafficking is not just in the most populated areas, as 
some assume, but everywhere. Attached as Attachment No. 2 (See 
Attachment No. 2) is a map of the State of North Carolina and how many 
ads are specific to each selected city. Even the rural communities in 
North Carolina are not immune from these heinous crimes. When I hear 
someone say, ``the victim could leave or run anytime they want. They're 
not a victim,'' I explain, I have never heard a victim say, ``I chose 
to be a prostitute when I grow up.'' It doesn't happen. They are 
victims, controlled by force, fraud, or coercion from the traffickers. 
Over the past 15 months the NCSBI has conducted over 20 trainings 
covering 15 counties, with more scheduled. In the 15 months the NCSBI 
has gone from conducting approximately 18 human trafficking 
investigations to having opened 61 cases to date. We have over 14 NCSBI 
Agents who volunteer to have a collateral duty of investigating human 
trafficking investigations. This comes a secondary duty, only after 
their original assignment is complete, which comes first.
    As the NCSBI moves forward in establishing a full-time Human 
Trafficking Unit we continue to train, educate, and conduct proactive 
investigations. We do this with collaboration and partnerships with 
local and Federal agencies. In the past 15 months the NCSBI has 
conducted 10 proactive operations in which we have encountered 45 
victims of human trafficking. With our partnerships and collaboration, 
we have been able to offer these victims services to get them out of 
their current situation, and we have identified and began to 
investigate traffickers to bring them to justice. Partnership and 
collaboration is the only way you can investigate this crime. It is 
like no other; we in law enforcement must work together and with the 
NGO's to conduct a successful investigation. It is one of the only 
crimes that law enforcement needs and relies on others for a successful 
case. When the NCSBI began this unit in 2018 the first thing I did was 
personally go and visit Federal agency leaders in each Area of 
Responsibility (AOR). I met with each RAC of Homeland Security 
Investigations office and explained what the NCSBI's mission was and 
what our goals are. Each office has been more than helpful in assisting 
the NCSBI's mission. I also met with and described our mission to each 
RAC of the Federal Bureau of Investigation (FBI) offices in North 
Carolina. They too have been very supportive and inclusive. Both 
Federal agencies have been imperative in the creation and success of 
the NCSBI's mission.
    In each of our Human Trafficking outreach operations and in most of 
our investigations there has been a positive interaction with Federal 
and local law enforcement. We are here to support each other, with the 
same goal of supporting victims and helping them get out of ``the 
life'' and bring justice to the traffickers. This partnership is key, 
we must all share our data and information because the traffickers know 
no boundaries. We must work hand-in-hand with our NGO partners and make 
sure to include them as we move forward in this effort to end Human 
Trafficking. On average, it takes 6 encounters with law enforcement and 
NGO's to get a victim to understand that their normal is not normal and 
show them a better way of life without a trafficker. So, we all must 
work vigilantly and continuously together to make a difference in North 
Carolina.
    As we move forward with a full-time Human Trafficking unit for the 
NCSBI, I am proud to lead the charge from our agency. I am proud to 
have partners such as HSI and FBI and our local law enforcement as we 
tackle this hideous crime. In my 26+ years in law enforcement I have 
seen many gruesome crimes. I have dealt with murderers, rapists, and 
ruthless narcotic organizations. Until this assignment, I had never 
seen the violence, both physical and mental, the sickness and the 
controlling that a trafficker has over a victim. A victim that is 
another human being, a victim that has the potential to be successful, 
proactive person to society and their humanity taken away by someone 
else. The crime of human trafficking has always existed in some form. 
We must turn the lens of our views as to what it is, where it is, and 
how we go about changing it. No longer should we look at these 
individuals as ``choosing'' to sell themselves for sex, they are 
victims of human trafficking.
    In closing, I am proud to be the one who hopefully can make a 
change in Human Trafficking in North Carolina. I hope in my final years 
as a law enforcement officer we can see the success that the NCSBI and 
all partners hope for. I hope to have a full-time unit that makes a 
huge impact on this crime. Our number of reported victims will rise, we 
want them to rise to show the serious issue we have. If the numbers 
rise, then we know the public, law enforcement, and everyone is seeing 
this crime for what it really is and not ignoring or misidentifying it.
    Thank you to the Members of this committee for allowing me to 
testify here today.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Rose. Thank you for your testimony.
    I now recognize Colonel, is it? Colonel Aundrea Azelton to 
summarize her statement for 5 minutes.

 STATEMENT OF AUNDREA AZELTON, CHIEF DEPUTY, RANDOLPH COUNTRY, 
                NORTH CAROLINA SHERIFF'S OFFICE

    Ms. Azelton. Good morning, Chairman Max Rose and Ranking 
Member Walker. It is both an honor and a privilege to testify 
before you today on this incredibly important issue on behalf 
of Sheriff Greg Seabolt and the many dedicated professionals at 
the Randolph County Sheriff's Office.
    I am Colonel Aundrea Azelton, chief deputy at the Randolph 
County Sheriff's Office. I am a 24-year law enforcement veteran 
with 10 years of investigative experience. I wish I were still 
24.
    [Laughter.]
    Ms. Azelton. In 2016, I left Randolph County Sherriff's 
Office and went to work as a Special Victims Unit detective in 
Alamance County.
    I was assigned to Sheriff Terry Johnson to work human 
trafficking cases there. At that time, I had absolutely no 
experience or training and very little knowledge about human 
trafficking.
    However, I was quickly connected to the Alamance Anti-Human 
Trafficking Advocacy Council comprised of detectives from local 
municipalities, assistant district attorneys, an SBI agent, and 
a representative from the Alamance For Freedom, an NGO focused 
on the advocacy for human trafficking victims.
    Through that council I received knowledge and training that 
helped me recognize and understand my role and the process 
necessary to investigate human trafficking and the resources 
available to trafficking victims. I am by no means an expert in 
human trafficking investigations.
    However, I can testify to the fact that these 
investigations are complex and, therefore--and there are many 
forms of human trafficking that I had never before realized 
were in our communities.
    I can also testify that these investigations are beyond the 
existing expertise or experience of most local agencies in 
North Carolina without the assistance of the State Bureau of 
Investigations and/or Homeland Security Investigations and 
impossible without the collaboration from the district 
attorney's office and a local NGO.
    I left Alamance County and returned to the Randolph County 
Sheriff's office as the chief deputy in 2018. I will testify 
that our agency currently lacks the manpower, training, and 
resources necessary to investigate human trafficking.
    We do recognize that while human trafficking may not be 
widespread in Randolph County, the potential is there and even 
one trafficking victim in our community is worth the effort to 
prepare our agency for these investigations.
    Human trafficking takes many forms and does not 
discriminate. Every case is different from the next. Our most 
vulnerable citizens are being victimized in our communities in 
plain sight.
    These victims commonly come from backgrounds of poverty, 
domestic abuse, substance abuse, family dysfunction, or simple 
misfortune that have placed them in a position of 
vulnerability.
    They are targeted by predators that promise something 
better, often basic needs simply like a place to live. 
Traffickers use many different techniques to lure, coerce, or 
force their victims into sexual servitude, the sex trade, or 
labor. They are very adept at convincing victims to perform 
whatever acts they have chosen as long as it benefits them.
    Traffickers are even more skilled at holding these victims 
mentally hostage through emotional manipulation. Those powerful 
manipulations require even more powerful resources to help 
victims overcome their fears and/or attachments to their 
traffickers.
    NGO's are, therefore, a key to fighting human trafficking. 
These organizations must have resources and law enforcement 
must partner with these organizations in order to be able to 
offer human trafficking victims something better than the life 
they are living.
    These organizations must be on the front end of 
investigations. Law enforcement cannot wait until they have a 
human trafficking investigation under way.
    It is imperative that they already have a partnership with 
these organizations and understand the services and resources 
available to victims if they hope to convince victims to come 
forward, cooperate with investigations, and testify against 
their handlers.
    Community awareness is equally important. These victims are 
often living in plain sight among us, not just handcuffed in 
the basement and, unfortunately, for our community it is 
necessary that everyone understand that human trafficking is 
not simply physical captivity but can be and is more likely to 
be more subtle mental captivity of power, control, and 
dependence.
    Our schools, businesses, churches, and other governmental 
offices must become partners with law enforcement so they can 
recognize the indicators of human trafficking and know how to 
report the suspicion and to whom it should be reported.
    It is equally important that we change the mindset of law 
enforcement to--in regards to trafficking victims. When the 
term ``human trafficking'' is mentioned, most people will 
picture a child or a young woman chained or physically 
restrained and locked away in a basement.
    In actuality, many cases are much more complex and not 
nearly as clear cut. Many times victims appear to be complicit 
in crimes that officers or detectives are investigating.
    Victims of human trafficking are many times participating 
in crimes of drug trafficking, prostitution, and frauds. Those 
victims who are being coerced or deceived into participating 
are usually unlikely to cooperate with detectives and even less 
likely to identify as a victim.
    They either fear their trafficker, trust their trafficker, 
or rely on them for their most basic needs or to provide for 
their addiction.
    In some cases, the trafficker is a romantic partner and 
even a parent. These cases often end with the victim being 
charged for the crime and never even recognized as a victim.
    In cases where victims are identified, the likelihood of 
the victim being cooperative and testifying against their 
trafficker is slim.
    Human trafficking cases are complex. These cases involve 
what we classify in law enforcement as a special victim 
investigation.
    However, they also require the resources and longevity of a 
vice narcotics-style investigation involving tremendous amounts 
of manpower and sometimes months of investigation.
    These cases generally involve technology that requires yet 
another skill set to properly investigate. In addition, human 
trafficking does not operate solely within jurisdiction. 
Victims are moved or operated from county to county, across 
State lines, and into other countries.
    Most counties and municipalities in North Carolina simply 
do not have the manpower and resources to properly and 
completely investigate these cases.
    Agencies are often overwhelmed with obvious crimes and 
focused on the current opioid epidemic. It is therefore 
imperative that human trafficking be investigated from a task 
force perspective and include partners from local, State, and 
Federal agencies but also include prosecutors, NGO's, and other 
service agencies like the Department of Social Services.
    Local agencies cannot investigate these cases alone. The 
first step an agency must take in recognizing--is recognizing 
that although human trafficking may not be a wide-spread 
problem in their jurisdiction, even one trafficking victim is 
too many.
    We must make training and education a priority and initiate 
those necessary partnerships so we know and understand the 
complexities of investigations, can recognize the indicators of 
human trafficking, and can be prepared to properly, skillfully, 
and effectively interact with victims and have services and 
resources in place to offer them.
    It takes a team to bring these cases to fruition. If 
agencies hope to combat human trafficking in their 
jurisdictions they must have the support of lawmakers and 
resources of our State and Federal Government.
    The Randolph County Sheriff's Office is, therefore, seeking 
a task force position with the Department of Homeland Security 
in an effort to initiate a partnership to combat human 
trafficking in our community.
    On behalf of my agency and potential victims in our county, 
I thank you all for your willingness to listen, to develop laws 
to protect victims, and allocate funding to assist agencies 
like ours in this important crime-fighting endeavor.
    Thank you.
    [The prepared statement of Ms. Azelton follows:]
                 Prepared Statement of Aundrea Azelton
                            October 25, 2019
    Good morning Chairman Max Rose and distinguished committee Members. 
It is both an honor and a privilege to testify before you today on this 
incredibly important issue on behalf of Sheriff Greg Seabolt and the 
many dedicated professionals at the Randolph County Sheriff's Office. I 
am Colonel Aundrea Azelton, chief deputy at the Randolph County 
Sheriff's Office. I am a 24-year law enforcement veteran with 10 years 
of investigative experience. In 2016, I left Randolph County Sheriff's 
Office and went to work as a special victims unit detective in Alamance 
County. I was assigned by Sheriff Terry Johnson to work human 
trafficking cases there. At that time, I had absolutely no experience 
or training and very little knowledge about human trafficking. However, 
I was quickly connected to the Alamance Anti-Human Trafficking Advocacy 
Council comprised of detectives from local municipalities, assistant 
district attorneys, an SBI agent, and a representative from Alamance 
for Freedom, a NGO focused on advocacy for human trafficking victims. 
Through that council, I received knowledge and training that helped me 
recognize and understand my role in the process necessary to 
investigate human trafficking and the resources available to 
trafficking victims. I am, by no means, an expert in human trafficking 
investigations, however I can testify to the fact that these 
investigations are complex and there are many forms of human 
trafficking that I had never before realized were in our communities. I 
can also testify that these investigations are beyond the existing 
expertise or experience of most local agencies in North Carolina 
without the assistance of the State Bureau of Investigations and/or 
Homeland Security Investigations and impossible without collaboration 
from the District Attorney's Office and a local NGO. I left Alamance 
County and returned to the Randolph County Sheriff's Office as the 
chief deputy in 2018. I will testify that our agency currently lacks 
the manpower, training, and resources necessary to investigate human 
trafficking. We do recognize that while human trafficking may not be 
wide-spread in Randolph County, the potential is there and even 1 
trafficking victim in our community is worth the effort to prepare our 
agency for these investigations.
    Human trafficking takes many forms and does not discriminate; every 
case is different from the next. Our most vulnerable citizens are being 
victimized in our communities in plain sight. These victims commonly 
come from backgrounds of poverty, domestic abuse, substance abuse, 
family dysfunction, or simple misfortune that have placed them in a 
position of vulnerability. They are targeted by predators that promise 
something better, often basic needs like simply a place to live. 
Traffickers use many different techniques to lure, coerce, or force 
their victims into sexual servitude, the sex trade, or labor. They are 
very adept at convincing victims to perform whatever act they have 
chosen as long as it benefits them. Traffickers are even more skilled 
at holding these victims mentally hostage through emotional 
manipulation. Those powerful manipulations require even more powerful 
resources to help victims overcome their fears and/or attachments to 
their traffickers.
    NGOs are therefore a key to fighting human trafficking. These 
organizations must have resources and law enforcement must partner with 
these organizations in order to be able to offer human trafficking 
victims something better than the life they are living. These 
organizations must be on the front end of investigations. Law 
enforcement cannot wait until they have a human trafficking 
investigation under way; it is imperative that they already have a 
partnership with these organizations and understand the services and 
resources available to victims if they hope to convince victims to come 
forward, cooperate with investigations, and testify against their 
handlers.
    Community awareness is equally important. These victims are often 
living in plain sight among us, not just handcuffed in the basement. 
Unfortunately for our community, it is necessary that everyone 
understand that human trafficking is not simply physical captivity but 
can be, and is more likely to be, a more subtle mental captivity of 
power, control, and dependence. Our schools, businesses, churches, and 
other governmental offices must become partners with law enforcement so 
they can recognize the indicators of human trafficking and know how to 
report the suspicion and to whom should it be reported.
    It is equally important that we change the mindset of law 
enforcement in regards to trafficking victims. When the term human 
trafficking is mentioned, most people will picture a child or young 
woman, chained or physically restrained and locked away in a basement. 
In actuality, many cases are much more complex and not nearly as clear 
cut. Many times victims appear to be complicit in the crimes that 
officers or detectives are investigating. Victims of human trafficking 
are many times participating in crimes of drug trafficking, 
prostitution, and frauds. Those victims, who are being coerced or 
deceived into participating, are usually unlikely to cooperate with 
detectives and are even less likely to self-identify as a victim. They 
either fear their trafficker, trust their trafficker, or rely on them 
for their most basic needs or to provide for their addiction. In some 
cases the trafficker is a romantic partner or even a parent. These 
cases often end with the victim being charged for the crime and never 
even recognized as a victim. In cases where victims are identified, the 
likelihood of the victim being cooperative in testifying against their 
trafficker is slim.
    Human trafficking cases are complex. These cases involve what we 
classify in law enforcement as special victim investigations, however 
they require the resources and longevity of a Vice Narcotics-style 
investigation involving a tremendous amount of manpower and sometimes 
months of investigation. These cases generally involve technology that 
requires yet another skill set to properly investigate. In addition, 
human trafficking does not operate solely within a jurisdiction; 
victims are moved or operated from county to county, across State lines 
and into other countries. Most counties and municipalities in North 
Carolina simply do not have the manpower and resources to properly and 
completely investigate these cases. Agencies are often overwhelmed with 
obvious crimes and focused on the current opioid epidemic. It is 
therefore imperative that human trafficking be investigated from a task 
force perspective and include partners from local, State, and Federal 
agencies; but also include prosecutors, NGO's, and other service 
agencies like the Department of Social Services. Local agencies cannot 
investigate these cases alone. The first step an agency must take is 
recognizing that although human trafficking may not be a wide-spread 
problem in their jurisdiction, even one trafficking victim is too many. 
We must make training and education a priority and initiate those 
necessary partnerships so we know and understand the complexities of 
investigations, can recognize the indicators of human trafficking, and 
can be prepared to properly, skillfully, and effectively interact with 
victims and have services and resources in place to offer them.
    It takes a team to bring these cases to fruition. If agencies hope 
to combat human trafficking in their jurisdictions they must have the 
support of law makers and the resources of our State and Federal 
Government. The Randolph County Sheriff's Office is therefore seeking a 
task force position with the Department of Homeland Security in an 
effort to initiate a partnership to combat human trafficking in our 
community. On behalf of my agency and potential victims in our county, 
I thank you all for your willingness to listen, to develop laws that 
protect victims, and allocate funding to assist agencies like ours in 
this important crime-fighting endeavor.

    Mr. Rose. Thank you, Colonel.
    I thank all the witnesses for their testimony. I will 
remind the subcommittee that we each have 5 minutes to question 
the panel but I am sure we can go beyond that.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from North Carolina, hometown hero, Mr. Walker, for 
questions.
    Mr. Walker. Thank you, Chairman Rose.
    I think I will start my line of questioning this way. Of 
all the human trafficking training you have taken--and this is 
for all of you and let us keep our--if we can keep our answers 
brief we will get a few more of the questions in--all the 
training you have taken, whether that it is Government-
sponsored or otherwise, including NGO's, and just for people's 
listening perspective, NGO is basically a non-Governmental 
organization--what have you found to be the most valuable?
    Ms. Long, let me start with you. Of all the training that 
you have taken, is there something that stands out so this is 
something that is really working?
    Ms. Long. Thank you, Congressman Walker.
    When I think back to the--probably a little over 10 years 
in working in this area there are so many trainings that I can 
think of.
    You know, initially, I received a lot of trainings 
internally at the Salvation Army and with some of the different 
materials they had developed early on to address human 
trafficking throughout the Nation and then, you know, I think--
I think even--I just went last week to the Shared Hope 
International training in Cincinnati and even I learned so much 
there even all these years later.
    Mr. Walker. So is it fair to say that some of the--some of 
the great training is coming from the nonprofits, from the 
NGO's that are partnering with this? Is that fair to say?
    Ms. Long. Definitely.
    Mr. Walker. All right. Mr. Martinez, would you--same 
question to you. What is something out there--I guess my 
question is, as I want people to know, what are some of the 
things that are being--that are productive when it comes to the 
training side?
    Mr. Martinez. Well, training with HSI, you know, we 
participate on 120 task forces, and within those task forces we 
provide training to State and Federal and local agencies.
    Participating agencies also have access to our advanced 
human trafficking training that we conduct at our Federal Law 
Enforcement Training Center in Glynco, Georgia.
    But this is always changing. It is an evolving--it is an 
evolving crime. So we are always--HSI is always trying to 
modify and change our training to fit how we do today.
    Mr. Walker. Thank you. Thank you.
    Mr. Wall.
    Mr. Wall. Identify just one single training but any 
training opportunity in which there is a survivor.
    I have found in traveling across the East Coast and doing 
these training events for law enforcement to understand exactly 
what we are dealing with would be to have a survivor, a former 
victim, in front of them explaining their situation and how it 
was that they got into it, how they got out of it, and what 
their mindset was while in it.
    Mr. Walker. OK.
    Ms. Azelton. Colonel.
    Ms. Azelton. I cannot think of one particular training, but 
there are two components to the training that I have been to 
that were most impactful.
    The first type of training is one that is a 
multidisciplinary team training, which involves the NGO, the 
prosecutor, the other members of the task force that you are on 
or the people that you are working with.
    It gets everybody on the same page with these 
investigations. The second component is training that is 
victim-centered, that talks about victims and how to help us 
understand, change our mindset about victims and learn the 
techniques that we need to build the rapport with them.
    Mr. Walker. OK. Thank you.
    Given the--Mr. Wall, direct this one to you--given the 
intrastate, interstate, and international nature of human 
trafficking, in many cases across multiple jurisdictions, how 
does law enforcement across the State deconflict and coordinate 
cases?
    Mr. Wall. Well, right now----
    Mr. Walker. Maybe Mr. Wall, Mr. Martinez, for you guys.
    Mr. Wall. Yes. Right now, with our partnership with HSI and 
with the FBI, anytime we have got a human trafficking case in 
the State of North Carolina that could cross boundaries for us 
in a county situation we make sure we coordinate with our 
Federal partners.
    We immediately call our local partners, and right now it is 
just deconfliction by person and by constant communication.
    Mr. Walker. Mr. Martinez, anything to add to that?
    Mr. Martinez. Same thing, and we have a headquarters 
component that does it on a National basis where we contact our 
offices.
    Mr. Walker. Do you feel like those communications are 
getting better as far as----
    Mr. Martinez. Yes.
    Mr. Walker [continuing]. Back and forth and not the silo 
operation where we had years ago, back and forth? You feel like 
there are improvements?
    Mr. Martinez. Yes, sir. There is.
    Mr. Wall. Yes, sir. I think in this type of crime element, 
unlike in a narcotics division where you would have silos, I 
think the understanding is and everybody is sharing the 
information very well.
    Mr. Walker. As a former pastor and seeing some of this 
stuff from a distance, there is a psychological component to 
this as well--an emotional component.
    My wife has launched the Sexual Assault Nurse Examiner 
Program at Wake Forest Baptist Medical Center and has testified 
on behalf of the FBI in some of these cases here.
    My question is, is law enforcement or the State agencies--
is there an equipping going on to handle the sensitivity of 
these issues?
    Colonel Azelton just talked about some of the--not even 
knowing you are a victim in some of this. So, certainly, there 
is a criminal aspect to it, and we can talk about raising the 
penalty levels for the johns and things.
    But my part of it, is there someone to bridge the gap, to 
hold the hand of these victims to be able to walk them through 
to be able to get the information in a sensitive way that does 
not create more pressure or more hardships for them?
    Ms. Long, would you mind addressing that and maybe Colonel 
Azelton as well?
    Ms. Long. Sure. I think we are making progress in that area 
as well. A lot of the training that is conducted across the 
State and the symposiums we have conducted have included a lot 
of detail on trauma-informed services, trauma-informed 
investigations, and victim-centered services.
    So I do think we are making progress. We still have--we 
still have much to do.
    Mr. Walker. Ms. Azelton, did you have anything to add to 
that?
    Ms. Azelton. In smaller or more rural communities like 
Randolph County we are still emerging on our victim services 
and that is for our child advocacy centers, our sexual assault 
centers.
    We do not have those resources. I think that we are on the 
brink of developing those resources through our family crisis 
center. But we are not fully developed.
    The NGO's, such as Alamance For Freedom like Alamance 
County has, those are imperative to these investigations 
because those agencies provide that service to the victims.
    Mr. Walker. I just don't know that people fully understand 
the complexity of this crime where you can have somebody that 
is part of the crime but still a victim of the crime, and I am 
hoping that we can dial this down, too.
    I appreciate the Chairman's yielding. I want one more 
question.
    I would like to acknowledge--I believe Sheriff Rogers is 
here as well today of Guilford County. Thank you for your 
interest today. As well, we have got some commissioners--Kay 
Cashion, Commissioner Jeff Phillips, Commissioner Alan Branson. 
Thank you for being here today.
    Panel, what are the most common ways your agencies become 
aware of a human trafficking case? Let us bring it all the way 
back down to their--does the majority of cases develop through 
tips from the National hotline that we talked about or is there 
some other way that you are getting information on this?
    Just, quickly, for the 4 of you and then I am going to 
yield back to the Chairman.
    Ms. Long.
    Ms. Long. Thank you.
    You know, I do think we talk often about the National Human 
Trafficking Hotline and how wonderful it is and their stats 
are.
    But when you talk with the providers on the ground, they 
are receiving the majority of their referrals from others in 
their community that they have trained.
    So law enforcement, working with them, local coalitions, 
task forces, homeless shelters they may have trained. So it 
does seem that that piece of raising awareness is a bigger 
piece than the hotline.
    Mr. Walker. Mr. Martinez.
    Mr. Martinez. Certainly, the hotline does provide a lot of 
tips. But also working with our partners, working other 
investigations like gang investigations, narcotics, certainly 
comes from that. So we do see it through that.
    Mr. Walker. Mr. Wall.
    Mr. Wall. Yes, sir. We would see it from proactive 
investigations in which we would conduct an operation--an 
outreach operation.
    We develop a lot of cases from that as well as our 
partners, the NGO's, who are already servicing the victim and 
they come forward and are ready to move forward with a 
prosecutorial case.
    Mr. Walker. Colonel.
    Ms. Azelton. During my time in Alamance County, we did get 
tips from the community and I attribute that to Alamance For 
Freedom and Sheriff Johnson and some of our partners there did 
a really good job of awareness in our community.
    So we did have tips coming in from the community. In 
Randolph, where it is not so much a hot topic item, detectives 
are recognizing the elements of those crimes in crimes that 
they are currently investigating.
    Mr. Walker. You mentioned an Alamance For Freedom. Is that 
a group that you worked with directly when you were in Alamance 
County?
    Ms. Azelton. It was the NGO in Alamance that provided 
victim advocacy and services--emergency services--to the 
victims that we encountered.
    Mr. Walker. You had a close relationship in working with 
them?
    Ms. Azelton. Yes. They were with us at almost every 
training that we went to--provided training. It was--they were 
always there for a victim in emergency situations, which was 
incredible.
    They would actually be there when we first encountered 
them, provide emergency services at the time, placement, and 
would carry them through with finding a place to go and learn 
those life skills and we actually have a very inspiring case 
that I hope to share soon when that case is finished in court.
    Mr. Walker. Thank you, Colonel.
    Chairman.
    Mr. Rose. Thank you, Ranking Member Walker.
    So I want to just, first off, touch on the piece of the 
internet.
    I believe, Mr. Wall, you had mentioned the statistic of 
400,000 advertisements, which I find to be an incredibly 
striking number.
    So could each of you walk me through what you are seeing 
happening on the internet right now in regards to this issue? 
Then, just as importantly, what have your interactions been 
with these tech companies, social media companies, and 
otherwise to work with them to both investigate these cases 
using these advertisements as leads, and to get these 
advertisements off of their platforms?
    So we will start from reverse order. Colonel.
    I understand that there has not been any direct 
communication with them as well--that we find to be more often 
the case than otherwise.
    Ms. Azelton. During the time I was focusing on human 
trafficking investigations in Alamance County a lot of the--I 
didn't have a lot of interaction with the actual companies in 
submitting search warrants to certain companies. Sometimes they 
didn't even respond.
    Mr. Rose. Could you just go with that? Which companies 
would----
    Ms. Azelton. So there was a particular case where I sent in 
a subpoena to Google for a Google account and they never 
responded.
    That case I ended up turning over to the task force with 
HSI and I think they ended up following up on that. But I 
waited months and months and months with no response to that 
particular----
    Mr. Rose. Wow. So you sent the subpoena to Google regarding 
a human trafficking case that was actively occurring and Google 
didn't even take the time to respond to you?
    Ms. Azelton. That is how it appeared.
    Mr. Rose. That is astounding.
    Mr. Wall. Oh. Yes, sir. In dealing with some of these 
companies it just depends on who they are. Most of these 
websites are now housed outside the U.S. jurisdiction. They are 
in foreign countries.
    So that is where their servers sit, which is why there is 
not a lot that we can do as far as law enforcement.
    But as far as our interaction with them when depending on 
who they are, some of them have been very cooperative. They 
will send us everything because they don't want the heat of law 
enforcement on them in not responding.
    So they will give us anything we need as far as the 
subpoenas. But what we are seeing on-line that is basically how 
these operations are working.
    Mr. Rose. So you are telling me that there are on-line 
marketplaces, for all intents and purposes that----
    Mr. Wall. Absolutely.
    Mr. Rose [continuing]. That are operated with servers off-
line. But name some of these companies.
    Mr. Wall. Skip the Games, Adult Search, City X Guide, One 
Back Page, Mega Personals. There are over 40 that you could go 
to right now and we can pull up and you could find anything you 
wanted.
    Mr. Rose. OK. We would appreciate it if you could just 
provide us with a list of any of these that you are aware of.
    Mr. Wall. Sure.
    Mr. Rose. Mr. Martinez.
    Mr. Martinez. The same. As you heard in my opening 
testimony, the Muslim case utilized the internet to get his 
victims and people to--that they serviced.
    So the internet provides anonymity. I mean, they are always 
using that platform to get their victims and sell their 
product.
    So that is one thing that--and with my colleagues with 
issues with getting this information from the tech companies, 
that is something that whenever we have issues we--our cyber 
crimes center and headquarters is always providing assistance 
and getting that type of support.
    Mr. Rose. Well, undoubtedly, we have seen the cases of 
human trafficking dramatically increase over the last 5 to 10 
years. Do we think in part that is due to these companies that 
are established in these on-line marketplaces?
    Mr. Martinez. I would say it could be part of it. I mean, 
human trafficking is such a clandestine crime where everyday 
everything is evolving and we are developing new techniques to 
uncover it.
    So that could be part of it, yes.
    Mr. Rose. Ms. Long.
    Ms. Long. I mean, the only thing that I would add to that 
is that we do know also that apps are used as recruitment and 
we have seen cases that used Facebook to recruit and help groom 
victims and, of course, now it is moving away from Facebook so 
we--but we do hear of cases with Instagram and others.
    The commission hasn't had any, you know, direct contact 
with companies.
    Mr. Rose. So when you talk about apps what you are 
specifically referring to is social media platforms or are 
there apps that are dedicated to this type of heinous activity?
    Ms. Long. I would have to defer.
    I know the social media platform for sure for recruiting 
and coercing victims. But do you know of any specific apps that 
are--yes, I don't either.
    Mr. Rose. OK. All right. Thank you, ma'am.
    We can continue with your--all right. Great.
    I defer to you again, sir.
    Mr. Walker. Thank you, Chairman.
    My condolences go out to the families and friends of the 39 
victims found dead last week--some of you may have seen it--in 
the trailer of a truck in Essex, over in the United Kingdom.
    While this is, obviously, out of our jurisdiction, this is, 
unfortunately, an all-too-familiar situation as there are 
countless stories of victims, sometimes in the hundreds, being 
discovered in the back of a trailer in terrible conditions in 
the United States.
    What would be beneficial to law enforcement officers and 
agencies to be able to better identify and save these victims 
trafficked in these trailers before it comes to the tragic 
situation that we experienced in England?
    We have seen some of that here in the country and, Mr. 
Wall, let me start with you. Is there some things there that 
would be beneficial to law enforcement identified before it 
gets to that place?
    Mr. Wall. Well, of course, and we are working in 
conjunction with Texas DPS to train our North Carolina State 
Highway Patrol to identify any vehicles that may be driving up 
and down the highways such as that.
    But it is just getting the word out to the communities, to 
the law enforcement community and to the public, as to what 
human trafficking may look like.
    I feel like once they see something they will say 
something, and then we can move forward with it.
    Mr. Walker. Mr. Martinez, do you believe that some of our 
immigrant communities are targeted based on the fear of--
sometimes you hear this about deportation--that makes them even 
less willing to come clear on this? Is this something that you 
have seen or experienced? Somebody want to address that?
    I will start with you, Mr. Martinez.
    Mr. Martinez. That is absolutely a problem. Illegal 
immigrants that are here in the United States are vulnerable 
and they are being used in trafficking cases because 
traffickers take advantage of that.
    They know that they are being reported to ICE or to 
officials that they are going to be deported. So that is 
definitely----
    Mr. Walker. I believe last year you guys made close to 
1,600 arrests, I believe, if my numbers are correct on ICE--
including ICE and HSI specifically, this human trafficking.
    Are those numbers correct as far as you----
    Mr. Martinez. The specific numbers--criminal arrests for 
fiscal year 2018 was close to 16,588 and----
    Mr. Walker. Mm-hmm. We know that the human smuggling and 
the human trafficking, specifically at our Southern Border, is 
a continued growing issue.
    Immigrants have been tracked from over 60 countries there, 
and for many of those victims that are paying these coyotes, 
that payment does not end once they smuggle them inside the 
border.
    Have you guys seen this continued abuse once they cross 
over into this country where these gang-related are continuing 
to reap payment, as horrible as that sounds? Is that something 
that you see and it is continued once they arrive here?
    Mr. Martinez. That is correct, sir, and the payments never 
end and that is the problem they hold over now. They never end. 
They are always having to pay that payment and that is the 
abuse.
    Mr. Walker. Let me stay with you, Mr. Martinez. I want to 
focus a little bit more on how each of your agencies and 
organizations specifically work just to combat this entire 
problem.
    Does HSI have any human trafficking task forces in North 
Carolina?
    Mr. Martinez. Correct. We have one in Charlotte, one in 
Winston-Salem, and one in Raleigh.
    Mr. Walker. All right. So if that is the case, how do you 
determine which local law enforcement partners are selected as 
task force officers and how does the TFO relationship work to 
target specifically human trafficking?
    Mr. Martinez. Those relationships or those task force 
officers that come into--to work with us are through dialog and 
that is through day-to-day interactions with either drug 
smuggling, crimes, gangs, anything--human trafficking.
    So it is dialog with myself as an executive going to the 
different departments and having dialog with executives and 
building coalitions so we can have those exchange of resources 
to better combat human trafficking.
    Mr. Walker. OK.
    Mr. Wall, how many rapid response teams currently exist 
across the State of North Carolina and how many do you think 
are needed?
    Mr. Wall. Currently, I think there are--Christine, help me 
out--24 or 44. They are in different pockets--the rapid 
response teams, which are mostly comprised----
    Mr. Walker. Can you unpack that rapid response for the 
listener today? Please----
    Mr. Wall. A rapid response team or multi-discipline team is 
usually made up of NGO's--nongovernmental organizations--that 
are there as service providers when law enforcement encounters 
a human trafficking victim.
    It is someone that we rely on to call upon to come to the 
scene to help rescue that victim, to get them into--whether it 
is get them to some food, to housing, to get them out of that 
situation.
    North Carolina is not completely covered. I don't know if 
that number is correct as far as 24 but they are across the 
State. But we have a lot of counties that are still uncovered 
with the rapid response team.
    Mr. Walker. So you believe these NGO's are valuable 
providers or partners with you. Could you do your job without 
them? Let me just be that point-blank.
    Mr. Wall. No. No. Could not do--this crime of human 
trafficking could not be investigated by law enforcement alone. 
We must have the partners of the NGO's to do this job.
    Mr. Walker. On the rapid response teams, what is the 
biggest hurdle to establishing these teams?
    Mr. Wall. I think it is----
    Mr. Walker. Ms. Long, I want you----
    Mr. Wall. Yes.
    Mr. Walker. I mean Mr. Wall. Then we will come back to Ms. 
Long.
    Mr. Wall. I think it is education. I think it is getting 
the community to understand what human trafficking is and then 
finding that passionate person or people within that community 
that want to stand up a rapid response team and make a 
difference in their community.
    Mr. Walker. Ms. Long, do you want to add anything to that?
    Ms. Long. Sure, I would, actually.
    So we have counted about 24 that are either rapid response 
teams or maybe they are a task force or a coalition that some 
of them are not always focused on 24/7 response with the 
National hotline.
    So as far as rapid response teams, there is probably around 
11 or 12 of those, and I think part of the most difficult 
challenge that they face is that these are groups coming 
together on their time to try to pull together different 
efforts and organizations.
    So I still think to some extent having that State-wide task 
force or the unit that Special Agent Wall is talking about is 
needed to help just organize and add that extra additional 
support into them because they are doing it as collateral 
support.
    Mr. Walker. A couple more questions, then I will yield 
back.
    Ms. Long, I want to stay with you here. How does the Human 
Trafficking Commission partner with the DHS Blue Campaign?
    Ms. Long. Yes. You know, we were looking at having the Blue 
Campaign come about a year ago. We were planning an event to 
have them come and do a round table, and then due to various 
budget-related items we had to postpone that.
    Then we do have material from the Blue Campaign that we use 
and take with us different places--tip cards, that sort of 
thing.
    Mr. Walker. Mr. Martinez, my final question is do you know 
if there is a Homeland Security Information Network Portal for 
human trafficking, and if there is do you think such a portal 
code could be helpful in sharing information on human 
trafficking?
    Or is there a different system that you would recommend to 
use to reach other law enforcement entities about human 
trafficking trends, best practices and cases?
    Mr. Martinez. Yes. Yes. Thank you for your question.
    We do. We call it the HSIN, Homeland Security----
    Mr. Walker. Can you repeat that? Called the----
    Mr. Martinez. HSIN.
    Mr. Walker. OK.
    Mr. Martinez. It is through fusion centers that have 
communication across the country and able to share strategies 
and information through that system.
    Headquarters also has--our headquarters human trafficking 
unit has a way to get information out to any of the different 
offices that we have across the country and share that 
information that way through our State and local partners, 
through all across the country.
    Mr. Walker. Thank you.
    Chairman.
    Mr. Rose. Thank you, sir.
    I want to touch on big business for a moment here. We will 
start with Ms. Long. We will just go on down.
    Do we have a sense that big business is complicit in this--
that they are aware that, potentially, some of their labor is 
coming from this?
    If not, then what actors in the private sector--what can we 
be looking to the private sector for here as a partner? 
Because, certainly, there is some demand here that is being 
met.
    So we have to look at supply. But how can we look at 
demand?
    Ms. Long.
    Ms. Long. I do think to some extent, you know, some big 
business is aware. Some of the efforts that we have taken to 
try to help educate and bring awareness is--at our last 
symposium in 2019 we had a couple of specific workshops on 
financial crimes investigations related to human trafficking 
and we had several banks come.
    A bank helped sponsor some of that to help kind-of--yes, 
just further that knowledge and how they can help with 
investigations.
    Then on even a State-wide--a State government platform, I 
guess, with our Department of Labor, you know, with their 
housing inspectors that go out and different initiatives that 
go out they definitely speak as well.
    They are looking for things and talk with growers and 
others in the community about human trafficking as well.
    Mr. Martinez. Yes. For Homeland Security Investigations we 
are starting a new initiative. It is called the STOP 
Initiative, and that is the Strategic Trafficking Outreach 
Program, where we are focusing on industries to inform them, 
like, an example is the transportation industry airlines and 
busses and to make that information available to them because 
we feel, I think, being that this is everywhere, transportation 
is a key component to that, too, and they need to have that 
information and they are more than willing to assist.
    Mr. Wall. Yes, sir. I do believe that big business is 
probably involved in it but their awareness of it is probably 
not--they are not as complicit as you may think.
    One of the things that I have seen in my travels the city 
of Houston is doing a great job in stopping the trafficking 
within their city by education.
    So they have put in mandates that say every bus, every cab, 
every hotel worker, every restaurant worker within that 
community has to have some sort of human trafficking education 
as well as any private business that is doing any business with 
the city of Houston must sign a contract with them saying that 
if they have knowledge of any human trafficking within their 
labor force that their contract can be null and void.
    That is just one small example of how, you know, a small--
not a small community, but a community can, you know, get the 
word out and make sure that those businesses are not complicit 
at all.
    Ms. Azelton. I think that is just another component to 
these investigations is community awareness. Whether it be 
through big business, small business, our community has to be 
aware of what trafficking looks like and who to report it to.
    Mr. Rose. So one more question. I may be a New Yorker, but 
I am humble.
    So what, if anything, do you think are some lessons that 
North Carolina can teach other States and other localities 
throughout the country?
    Ms. Azelton. I think we just have a lot to learn. I don't 
know that there is anything that we can teach anyone else. I 
think we have to learn from each other.
    I think everybody has an experience and knowledge and 
training that can help each other. We can all work together to 
make these investigations better.
    Mr. Wall. Yes, sir.
    I feel like North Carolina, at this point, we are a little 
behind a lot of the other States that have established this and 
understood what human trafficking is and standing up task 
forces and really getting together and pushing forward.
    We are at the ground level. So as far as teaching anybody 
anything, I don't think we are quite there yet. We are still in 
the learning mode.
    But we are moving forward and we are pushing as hard as we 
can.
    Mr. Martinez. Coming new into North Carolina, I have seen 
from other places across the country is that even this panel 
you can hear the passion and the dedication to this horrible 
crime.
    You see it in our panel and you can only imagine on the 
agent level on what they do. I see it. I have seen it 
everywhere.
    So it is my priority to develop great partnerships here in 
the State of North Carolina.
    Ms. Long. Thank you. I don't know that I have much to add 
to that. I agree that we are still in a learning mode and 
working together is kind of how we are making our way through 
it.
    Mr. Rose. I am certainly noticing the cultural distinctions 
between New Yorkers and the South. You all are--you don't do 
yourselves justice.
    I think it is--I am extraordinarily impressed by the great 
work that you are doing and I do thank you for giving me the 
opportunity to learn from you.
    Sir.
    Mr. Walker. Just a couple questions left, Chairman, if I 
could, please.
    I want to--I want to try to figure out are we--are we--I 
know education is an issue here. But how are we reporting these 
cases?
    How do these victims know to make sure this is the number, 
this is the place?
    I know there is a National hotline. My question is, is it 
the most effective way for law enforcement to get tips on human 
trafficking cases.
    Mr. Martinez.
    Mr. Martinez. You asked earlier what are we doing for the 
victims once an investigation has developed. HSI has the victim 
assistance specialist that we have that would go into any 
investigation and they take the victims and they start the 
process of stabilization for the victims.
    So our victim assistance specialist are constantly doing 
education. They are out doing trainings and they are having 
these contacts with the NGO's, and that relationship with the 
NGO's is an important step, as my colleague said earlier.
    Without them, we can't--we can't do what we do. So if there 
is that relationship with our victim assistance specialist and 
with our special agents, we are able to get more tips and more 
victims that come forward with that.
    Mr. Walker. OK. Anybody else want to address that?
    Mr. Wall.
    Mr. Wall. Yes, sir. I think it comes back to the 
relationships with law enforcement, with the service providers.
    Yes, the Polaris Project and the 1-800 numbers are a great 
tool. But a lot of these service providers are going to see 
these victims on the ground level probably before somebody 
calls that 1-800 number and knowing that a service provider has 
a law enforcement officer or agency to lean upon and directly 
call that will serve them properly I think you will see the 
numbers start to tick up.
    Mr. Walker. Ms. Long, if there is a 12- or 13-year-old 
young girl, young boy out there, showed up for school that has 
been a victim of this, how do they find out where they go to 
make sure their anonymity is protected but also--because these 
deviant human beings have instilled in their mind that if they 
say anything--well, first of all, they are the victim and they 
deserve this.
    No. 2, is if they do something--if they haven't already 
created an addiction problem for them already they have put 
them in fear of their life. How does that person get that 
information to you?
    Whatever the environment from our schools or hospitals, how 
do they approach? How do they get this information into the 
pipeline?
    Ms. Long. Could be--yes, a few different ways, actually. So 
we do have a law in North Carolina where particularly middle 
schoolers are supposed to be educated on sex trafficking. So we 
have a little bit more to develop with that as far as 
recommending specific materials and curriculum to be used in 
schools.
    But schools are doing this now and the National Human 
Trafficking Hotline is the number being given that will then 
reroute them back to the closest NGO in their area providing 
services.
    Of course, if they are a minor as well then Child 
Protective Services would be involved. Hospitals as well. 
Atrium Healthcare out of Charlotte has launched an initiative 
with a tool kit and a three-staff team that is kind-of 
providing their own rapid response team within the hospital 
system.
    They presented to a committee of ours recently and said 
they had seen about 127 referrals since March when they began. 
So their model seems to be working well and we are looking 
forward to seeing how it continues.
    Mr. Walker. Mr. Wall, in your experience, the johns, for 
lack of a better expression, who I think are abusers in this 
process as much as anybody, are the penalties stiff enough for 
these guys--guys and gals, I mean?
    Mr. Wall. No, sir. Not at all. No.
    If we do a proactive operation, which we do an outreach 
operation for the females and then one to bring in the males as 
far as the john cases, as you refer to. That is going to be a 
misdemeanor. They are going to get a ticket and they are going 
to walk away.
    Mr. Walker. So let me get this straight.
    So you get the trafficker, you have the victim, and you 
have the johns.
    Mr. Wall. That is correct.
    Mr. Walker. In some cases, the victim may end up getting a 
longer punishment or penalty in the justice system than the 
actual john. Is that----
    Mr. Wall. That is correct.
    Mr. Walker. Is that not just ludicrous?
    Mr. Wall. Yes, sir. Hundred percent.
    Mr. Walker. Think about that.
    Mr. Martinez, anything you want to weigh in on that in your 
time and as a--would you agree with Mr. Wall as far as the 
johns come out of this in a way--much less way than they should 
be when it comes to the penalty and the punishment?
    Mr. Martinez. Oh, absolutely, and victims are scarred for 
life. It is something they carry with them forever.
    So that has no comparison. I totally agree.
    Mr. Walker. Just let me keep pushing on this. Help me 
understand this because I want to make sure we get this.
    Do the johns know when they go to these places or portals 
or sites that the victims they are encountering, whether it be 
young men or young women, do they know these people are being 
trafficked?
    Mr. Wall. It is my opinion--again, back to my statement, I 
think they have to know. I think deep down they don't want to 
believe that and they want to think that this person is here of 
their free will since they are calling them and they meet them 
alone.
    But a rational human being, even though he is trying to buy 
sex, has got to think is this really what this person has 
chosen to do--did she walk in this room freely or he walk in 
this room freely at their own free will and choosing to do 
this?
    Mr. Walker. What creates a spike in this in our 
communities? What is it that you see that drives this at 
different seasons, different times? What is it that drives a 
spike into this?
    Mr. Wall. I think it is seasons. It is events. It is----
    Mr. Walker. Like sporting events and things?
    Mr. Wall. Absolutely. You got sporting events. We just had 
the State Fair, the furniture market here in North Carolina, 
the MBA All-Star that we had. When you see the Super Bowl, 
there is always a spike.
    So anywhere you have a large contingent of predominantly 
male individuals with excess money in a combined location away 
from home, I think you are going to see a spiked increase.
    Mr. Walker. Ms. Long, going back to the earlier question, 
if you believe there were stricter enforcement penalties and 
punishment on these johns, do you think that would help deter 
some of these crimes?
    Ms. Long. I do. I do think so, and I have--just last week 
we learned about some States who are changing those penalties 
and are making maybe the second offense a felony--you know, the 
first a misdemeanor, the second a felony. And so that is 
something we are very interested in our legislative committee 
looking into.
    Mr. Walker. Well, as I wrap up here today, I know the 
Department of Homeland Security Blue Campaign that conducts 
education outreach on human trafficking, they have sent us some 
samples of their materials--they are on the front desk--if that 
is helpful to any of your organizations.
    Let me say thank you to the panel. I can tell the emotion 
that, as difficult as this is, that you are still moved and 
that speaks to me.
    I would also like to thank all the NGO's that are present. 
I know we are on a Federal witness hearing here. But let me say 
I view that as a ministry and a calling.
    Thank you to our other local law enforcement, our Guilford 
County commissioners, and then to also Chairman Rose, who was 
California to New York to North Carolina yesterday and getting 
in Raleigh about midnight and driving over and coming to our 
home State.
    North Carolina is proud to have you here and we thank you 
for your time and your concern in allowing us to have this 
hearing here in North Carolina.
    Mr. Rose. Thank you, sir. You know, in this era of 
extraordinary hyper partisanship, it is an honor to work with 
you each and every day.
    So with that, I do thank the witnesses for their valuable 
testimony and the Members for their questions.
    The Members of the subcommittee may have additional 
questions for the witnesses and we ask that you respond 
expeditiously in writing to those questions.
    One thing I can think of is that subpoena you mentioned.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 10:25 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
